<html>
<title> - A NATIONAL INTEROPERABLE BROADBAND NETWORK FOR PUBLIC SAFETY: RECENT DEVELOPMENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
 A NATIONAL INTEROPERABLE BROADBAND NETWORK FOR PUBLIC SAFETY: RECENT 
                              DEVELOPMENTS

=======================================================================

                                HEARING

                               BEFORE THE

      SUBCOMMITTEE ON COMMUNICATIONS, TECHNOLOGY, AND THE INTERNET

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2009

                               __________

                           Serial No. 111-67


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
74-100                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef889f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a>  


                    COMMITTEE ON ENERGY AND COMMERCE

                      HENRY A. WAXMAN, California
                                 Chairman
JOHN D. DINGELL, Michigan            JOE BARTON, Texas
  Chairman Emeritus                    Ranking Member
EDWARD J. MARKEY, Massachusetts      RALPH M. HALL, Texas
RICK BOUCHER, Virginia               FRED UPTON, Michigan
FRANK PALLONE, Jr., New Jersey       CLIFF STEARNS, Florida
BART GORDON, Tennessee               NATHAN DEAL, Georgia
BOBBY L. RUSH, Illinois              ED WHITFIELD, Kentucky
ANNA G. ESHOO, California            JOHN SHIMKUS, Illinois
BART STUPAK, Michigan                JOHN B. SHADEGG, Arizona
ELIOT L. ENGEL, New York             ROY BLUNT, Missouri
GENE GREEN, Texas                    STEVE BUYER, Indiana
DIANA DeGETTE, Colorado              GEORGE RADANOVICH, California
  Vice Chairman                      JOSEPH R. PITTS, Pennsylvania
LOIS CAPPS, California               MARY BONO MACK, California
MICHAEL F. DOYLE, Pennsylvania       GREG WALDEN, Oregon
JANE HARMAN, California              LEE TERRY, Nebraska
TOM ALLEN, Maine                     MIKE ROGERS, Michigan
JANICE D. SCHAKOWSKY, Illinois       SUE WILKINS MYRICK, North Carolina
HILDA L. SOLIS, California           JOHN SULLIVAN, Oklahoma
CHARLES A. GONZALEZ, Texas           TIM MURPHY, Pennsylvania
JAY INSLEE, Washington               MICHAEL C. BURGESS, Texas
TAMMY BALDWIN, Wisconsin             MARSHA BLACKBURN, Tennessee
MIKE ROSS, Arkansas                  PHIL GINGREY, Georgia
ANTHONY D. WEINER, New York          STEVE SCALISE, Louisiana
JIM MATHESON, Utah
G.K. BUTTERFIELD, North Carolina
CHARLIE MELANCON, Louisiana
JOHN BARROW, Georgia
BARON P. HILL, Indiana
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
JOHN P. SARBANES, Maryland
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
BETTY SUTTON, Ohio
BRUCE BRALEY, Iowa
PETER WELCH, Vermont
      Subcommittee on Communications, Technology, and the Internet

                         RICK BOUCHER, Virginia
                                 Chairman
EDWARD J. MARKEY, Massachusetts      FRED UPTON, Michigan
BART GORDON, Tennessee                 Ranking Member
BOBBY L. RUSH, Illinois              CLIFF STEARNS, Florida
ANNA G. ESHOO, California            NATHAN DEAL, Georgia
BART STUPAK, Michigan                BARBARA CUBIN, Wyoming
DIANA DeGETTE, Colorado              JOHN SHIMKUS, Illinois
MICHAEL F. DOYLE, Pennsylvania       VITO FOSSELLA, New York
JAY INSLEE, Washington               GEORGE RADANOVICH, California
ANTHONY D. WEINER, New York          MARY BONO MACK, California
G.K. BUTTERFIELD, North Carolina     GREG WALDEN, Oregon
CHARLIE MELANCON, Louisiana          LEE TERRY, Nebraska
BARON P. HILL, Indiana               MIKE FERGUSON, New Jersey
DORIS O. MATSUI, California
DONNA M. CHRISTENSEN, Virgin 
    Islands
KATHY CASTOR, Florida
CHRISTOPHER S. MURPHY, Connecticut
ZACHARY T. SPACE, Ohio
JERRY McNERNEY, California
PETER WELCH, Vermont
JOHN D. DINGELL, Michigan (ex 
    officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Rick Boucher, a Representative in Congress from the 
  Commonwealth of Virginia, opening statement....................     1
Hon. Cliff Stearns, a Representative in Congress from the State 
  of Florida, opening statement..................................     3
    Prepared statement...........................................     5
Hon. Anna G. Eshoo, a Representative in Congress from the State 
  of California, opening statement...............................     7
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     8
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, opening statement...............................     8
Hon. Joe Barton, a Representative in Congress from the State of 
  Texas, opening statement.......................................     9
Hon. Bart Stupak, a Representative in Congress from the State of 
  Michigan, opening statement....................................    10
Hon. Lee Terry, a Representative in Congress from the State of 
  Nebraska, opening statement....................................    11
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................    12
Hon. Peter Welch, a Representative in Congress from the State of 
  Vermont, opening statement.....................................    12
Hon. Tim Murphy, a Representative in Congress from the 
  Commonwealth of Pennsylvania, opening statement................    13
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, prepared statement................................    94

                               Witnesses

William Bratton, Chief of Police, Los Angeles Police Department..    14
    Prepared statement...........................................    17
    Answers to submitted questions...............................   108
Brian Fontes, CEO, National Emergency Number Association.........    26
    Prepared statement...........................................    28
    Answers to submitted questions...............................   112
Harlin R. McEwen, Chairman, Public Safety Spectrum Trust.........    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................   117
Jason Barbour, 911 Director, Johnston County, North Carolina.....    44
    Prepared statement...........................................    46
    Answers to submitted questions...............................   121
Stacey Black, Assistant Vice President, Market Development, AT&T.    52
    Prepared statement...........................................    54
    Answers to submitted questions...............................   125
Joseph Hanley, Vice President, Technology, Planning and Services, 
  Telephone and Data Systems, Inc................................    58
    Prepared statement...........................................    60
    Answers to submitted questions...............................   127
Kostas Liopiros, Principal and Founder, The Sun Fire Group LLC...    72
    Prepared statement...........................................    75
    Answers to submitted questions...............................   132

                           Submitted material

Letter of September 23, 2009, from APCO International to the 
  Subcommittee, submitted by Mr. Boucher.........................    95
Letter of September 23, 2009, from T-Mobile to the Subcommittee, 
  submitted by Mr. Boucher.......................................   102
Statement of Chief Paul Duquette, Newport, Vermont Police, 
  submitted by Mr. Boucher.......................................   107


 A NATIONAL INTEROPERABLE BROADBAND NETWORK FOR PUBLIC SAFETY: RECENT 
                              DEVELOPMENTS

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 2009

              House of Representatives,    
Subcommittee on Communications, Technology,
                                  and the Internet,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
Room 2123 of the Rayburn House Office Building, Hon. Rick 
Boucher [Chairman of the Subcommittee] presiding.
    Members present: Representatives Boucher, Eshoo, Stupak, 
Inslee, Weiner, Castor, Murphy, McNerney, Welch, Waxman (ex 
officio), Harman, Stearns, Upton, Shimkus, Walden, Terry, 
Blackburn and Barton (ex officio).
    Staff present: Roger Sherman, Chief Counsel; Pat Delgado, 
Chief of Staff; Amy Levine, Counsel; Tim Powderly, Counsel; 
Shawn Chang, Counsel; Greg Guice, Counsel; Sarah Fisher, 
Special Assistant; Alan DeLevie, Intern; Neil Fried, Minority 
Counsel; and Garrett Golding, Minority Legislative Analyst.

  OPENING STATEMENT OF HON. RICK BOUCHER, A REPRESENTATIVE IN 
           CONGRESS FROM THE COMMONWEALTH OF VIRGINIA

    Mr. Boucher. The subcommittee will come to order.
    Today we consider steps that the Congress can take to 
facilitate the creation of a nationwide interoperable broadband 
network for the first responder community. As the terrorist 
attacks of 9/11 and natural disasters like Hurricane Katrina 
starkly revealed, there are serious obstacles that prevent fire 
police and rescue personnel from one locality communicating 
with first responders from other localities when they converge 
on the scene of a disaster. In some instances, fire police and 
rescue personnel in a single locality may lack a means of 
interoperable communication each with the other. For almost a 
decade, there has been a widely expressed need to create a 
national fully interoperable communications network for first 
responders but as of today, that network remains a goal. It is 
not a reality.
    This morning we will examine various proposals advanced by 
the first responder community and by commercial wireless 
carriers for realization of the national interoperable network. 
In advance of the 700 megahertz auction in 2008, the FCC 
crafted a plan to auction the 10 megahertz D block of the 700 
megahertz spectrum to a commercial carrier, who under the terms 
of the proposal would then build out the D block with the 
requisite telecommunications equipment. Under the terms of the 
auction, the winning commercial bidder would share the 10 
megahertz with public safety and public safety would have 
priority access to that network. Those terms proved to be 
unattractive to the commercial carriers and in the auction the 
D block did not receive the auction reserve price and was not 
sold. It remains unsold at the present time.
    A variety of proposals have been advanced since the failed 
D block auction about how the D block could be used to create a 
much needed nationwide first responder network. We will examine 
today the proposals and ask if any of them could result in a 
true nationwide network built out with the necessary wireless 
telecommunications equipment. The build-out of the wireless 
infrastructure would appear to be the largest single challenge, 
how to finance that, and we will focus our inquiry today on how 
that build-out could be financed through the various proposals 
that have been placed before us.
    One proposal is to give the D block to public safety, and 
then it would be combined with the 10 megahertz of spectrum 
already held by the public safety broadband licensee, the 
Public Safety Spectrum Trust. While this option would clearly 
give public safety sufficient spectrum for a nationwide 
broadband network, it would not provide any funding for the 
build-out with the necessary equipment. While some contend that 
localities could then lease the 10 megahertz that D block 
received for free under the proposal to commercial entities and 
then apply the revenue from that lease to equipment build-out. 
I question whether sufficient revenue from the lease could be 
realized, particularly in rural areas, to finance the needed 
equipment purchase and installation.
    Another proposal is to auction the 10 megahertz block 
unencumbered for purely commercial use. The proceeds of that 
auction would then be used to help fund the build-out of a 
broadband network in the 10 megahertz of spectrum currently 
held by the Public Safety Spectrum Trust. This proposal 
likewise raises questions, given that no one believes the 
auction would raise sufficient funds to build out a nationwide 
network, perhaps only realizing a fraction of the total amount 
that is necessary. Where could public safety find the rest of 
the money that is needed? Could this proposal also leave 
smaller and more rural areas that lack financial resources 
behind?
    A third option is for the FCC to re-auction the D block for 
purchase by a commercial carrier to use in a public-private 
partnership with the public safety broadband licensee. However, 
to ensure a successful auction, that new auction would have to 
be restructured to address the concerns of commercial providers 
that resulted in the failure of a similarly structured auction 
in 2008. Whichever option is pursued, the most important goal 
is achieving a true nationwide public safety interoperability 
function. That means a plan that will ensure universal build-
out and will not favor those areas with more resources to 
invest in a network over others with more limited means. The 
most critical question for many when determining how best to 
address the matter is how it will ensure that rural areas and 
other financially disadvantaged regions are not left behind.
    We have an historic opportunity to make our nation more 
secure and to give our first responders a crucial tool they 
urgently need, and I hope that all member will keep this 
fundamental goal in mind as we consider how best to proceed, 
and I expect that this morning we will receive outstanding 
advice on these matters from our panel of witnesses, and I 
thank them for their attendance here today.
    That concludes my statement, and at this time I am pleased 
to recognize the ranking Republican on our subcommittee, the 
gentleman from Florida, Mr. Stearns.

 OPENING STATEMENT OF HON. CLIFF STEARNS, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF FLORIDA

    Mr. Stearns. Thank you, Mr. Chairman, and I agree with you 
that we will receive outstanding testimony on what to do, and I 
appreciate you having this hearing on the recent developments 
on a national interoperable public safety broadband network.
    The Digital Television Transition and Public Safety Act of 
2005 cleared 84 megahertz of spectrum formerly occupied by the 
broadcasters in the 700 megahertz band. Now, of that spectrum, 
24 megahertz was meant for first responders to use for 
interoperable emergency communications. The remaining 60 
megahertz was supposed to be auctioned for commercial services. 
In mid-2007, then-FCC Chairman Kevin Martin, endorsed a 
proposal to require the winning commercial bidder for 10 
megahertz of the spectrum, referred to as the D block, to 
negotiate a sharing agreement with public safety. In response, 
on June 29, 2007, Mr. Barton and myself along with 14 other 
members sent the FCC a bipartisan letter predicting that this 
approach would likely fail. The letter explained that 
commercial entities would be reluctant to bid on the D block 
for fear that they would fail to reach an agreement that would 
meet both their needs and those of public safety while still 
enabling them to recover their costs. So as a result, the 
letter concluded both the original 24 megahertz earmarked for 
public safety and the 10 megahertz D block would lay empty. The 
auction would raise less money for taxpayers and time would be 
wasted. The FCC ignored the advice in our letter and the 
auction failed as a result.
    The riskiest option going forward would be for the FCC to 
try another conditioned auction. Notwithstanding the failure of 
the D block auction, the FCC issued additional notices in May 
and September of 2008 proposing a re-auction of the D block 
with public safety conditions although it sought comment on how 
it might revise those conditions to improve the likelihood of 
success this time. The FCC did not take action on the proposal 
before Chairman Martin left. So I am concerned that few 
commercial providers would want to bid even with revisions 
since all the winner obtains is the right to negotiate with 
public safety.
    Most of the public safety community appears to agree that 
the conditioned auction approach is not worth pursuing. 
Instead, some argue that Congress pass a law to give the D 
block directly to the public safety community for free. The 
public safety community would then use the spectrum for 
construction of the nationwide public safety network in 
combination with the original 24 megahertz that the DTV 
legislation cleared for first responders. It could do so on its 
own or partner with commercial entities to do so. This would do 
little good, however, absent funding to construct the network.
    Now, another option is to use revenue from a straight 
commercial auction of the D block to fund a network on the 24 
megahertz first responders already have. Ten megahertz of the 
original 24 megahertz the DTV legislation cleared for first 
responders could be enough for the public safety network. Many 
public safety officials have filed waivers with the FCC to 
start building networks on the spectrum they already have 
access to. And even if it were not enough, proponents of this 
approach argue that public safety could switch from narrowband 
voice to voice over Internet protocol and use all of the 24 
megahertz for the broadband network. Cities such as New York 
are already indicating they are considering to do so. This 
approach would make more spectrum available for commercial 
broadband service at a time when demand is increasing but the 
supply of available spectrum is actually running low. This 
would also address the money issue, but some don't think 
wireless companies would be interested in building or serving 
the network.
    So, my colleagues, no matter which option we choose to 
pursue, it is clear that past auction conditions do not work. 
We do not want to delay any further. I am glad we are having a 
hearing, we need to get it correct, and I look forward to 
hearing from our witnesses. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Stearns follows:]

    [GRAPHIC] [TIFF OMITTED] T4100A.001
    
     [GRAPHIC] [TIFF OMITTED] T4100A.002
    
    Mr. Boucher. Thank you very much, Mr. Stearns.
    The gentlelady from California, Ms. Eshoo, is recognized 
for 2 minutes.

 OPENING STATEMENT OF HON. ANNA G. ESHOO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Eshoo. Thank you, Mr. Chairman, and good morning, 
everyone.
    The public safety communications has really been a 
longstanding concern of mine and that is why I joined with my 
colleague, Mr. Shimkus, to form the E-911 caucus almost 10 
years ago. It is hard to believe that it was that long ago. And 
during that time we worked on numerous projects to keep 
Americans safe and secure and to advance most importantly first 
responder communications at the ground level. Public safety 
concerns have evolved, especially since 9/11, when we were 
reminded in very, very stark terms that interoperability is the 
glue that holds together the call centers, the first responders 
and other emergency personnel. Interoperability is 
interdependent on an often scarce and valuable public resource, 
which is spectrum. The spectrum can provide better safety 
resources and employ the most advanced technological tools but 
the spectrum has not faced the prospect of seeing people die or 
being injured instead of surviving during a crisis.
    The issue before us, I think, is a matter of trust, whether 
we trust the new commission to resolve the long-suffering D 
block issue through the rulemaking process, can they make the 
so-called restructured public-private partnership auction work. 
Those of us who lived through the D block false start auction 
do not want to go through another incarnation of that process. 
Twelve cities are biting at the bit trying to get at the 10 
megahertz and 700 megahertz public safety broadband spectrum 
currently licensed to the Public Safety Spectrum Trust 
including the San Francisco Bay Regional Interoperable 
Communications System. They are shovel ready, and I think there 
is no reason to wait. I am not sure about the other proposals 
and I wonder who ultimately benefits. On the one hand, the 
major cities' chiefs asked for the spectrum without an auction 
but a number of regions might not need that much spectrum. Then 
we have carriers who are willing to pay big, no doubt, to get 
the same spectrum at auction. They claim to be willing to use 
funds siphoned off the top of the auction's proceeds to 
construct an interoperable broadband network for public safety.
    So we are here today to hear from everyone. I want to know 
if we can move ahead now not only in my district but also what 
the best use is for this essential public trust. So I welcome 
all the witnesses and thank you, Mr. Chairman, for having the 
hearing and I yield back.
    Mr. Boucher. Thank you very much, Ms. Eshoo.
    The gentleman from Illinois, Mr. Shimkus, is recognized for 
2 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Shimkus. I thank you, Mr. Chairman, and I am honored to 
be followed by my colleague and friend, Anna Eshoo, who we have 
done great work along with the community and we look forward to 
continuing that effort. You have done, Mr. Chairman, a good job 
outlining the options we have. That is why you all are here to 
answer questions and testify so we can kind of help correct, 
how do we address this problem. So I won't reiterate that.
    What I will say is that unfortunately this is an example of 
the--although we are interested and we are here and you are 
here, the intensity of the public interest in this obviously 
has fallen off, and with the FBI investigation going on now on 
an unspecified list of supposed terrorists and an unspecified 
target list, this room should be flooded with people because we 
have said numerous times, and I know Anna has, we can't sustain 
another failure of communication in a major catastrophe, and 
unless we get this D block right, that is what we are going to 
have. And so we have to get to it. So the chairman has outlined 
the options. We are going to look forward to hearing your 
testimony. I just like using the bully pulpit to mention to the 
chairman I would like to see us move on H.R. 3348, which would 
extend the grants program. There are some bills out there that 
would do that. I think that is important, something we could do 
now and it is well agreed to and probably could do on a 
suspension calendar if we could do that.
    And one thing that hasn't been talked about which has been 
raised is the issue of a regional approach on auction issues. I 
know people have addressed rural concerns, and that should be 
part of the debate and that is what I will be looking for that 
also.
    So with that, Mr. Chairman, thank you and I yield back.
    Mr. Boucher. Thank you very much, Mr. Shimkus.
    The chairman of the full Energy and Commerce Committee, the 
gentleman from California, Mr. Waxman, is recognized for 5 
minutes.

OPENING STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Thank you, Mr. Chairman. I want to thank you 
for holding this hearing and thank all of our witnesses for 
agreeing to come and share their knowledge and ideas on how to 
achieve nationwide public safety interoperability.
    This is certainly the unfinished business from 9/11 and 
Katrina and it is an urgent matter. As the FCC commissioners 
recognized at our hearing last week, resolution of this issue 
needs immediate attention, and while the FCC will certainly 
play a leading role, a number of the proposals if pursued would 
require additional legislative action by the Congress.
    During the last Congress, I was supportive of the concept 
of a public-private partnership and I continue to believe that 
some form of a public-private partnership would likely offer 
the clearest path to constructing a nationwide interoperable 
broadband network. Of course, the details of such an 
arrangement matter, and in light of the failure of the D block 
auction, we need to revisit these details. I am encouraged by 
the efforts of both the public safety community and the private 
sector to think creatively about building this network and I am 
pleased to see that they have come up with a full range of 
ideas which we will learn more about today. I would like to 
thank particularly Chief Bratton of the LAPD for being with us. 
Thank you for being here.
    As we listen to these proposals, I want you to know that 
there are three basic principles that I have in mind for any 
plan to address. First, the network or networks must be built 
quickly. Secondly, there must be a clear plan to ensure that 
deployment reaches all areas of the country including hard-to-
reach rural areas and underfunded municipalities. Third, the 
plan should try to avoid distorting or disrupting the 
commercial wireless marketplace by giving an unfair advantage 
to certain carriers over others.
    This is an important hearing, Chairman Boucher. I 
appreciate your holding it and it gives us an opportunity to 
learn more about this very important matter. To our witnesses, 
thank you for your participation and your testimony and look 
forward to the conclusion of the hearing and looking over the 
transcript and getting some ideas from this hearing today. I 
yield back my time.
    Mr. Boucher. Thank you very much, Chairman Waxman.
    The ranking Republican member of the Energy and Commerce 
Committee, the gentleman from Texas, Mr. Barton is recognized 
for 5 minutes.

   OPENING STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman, and thank you for 
holding this hearing along with Ranking Member Stearns, and I 
am certainly glad that our full committee chairman, Mr. Waxman 
is also in attendance.
    Mr. Chairman, if the FCC had listened to me, Mr. Stearns, 
Mr. Upton and several others several years ago, we wouldn't be 
having this hearing. We along with 13 other of our colleagues 
from both sides of the aisle, I might point out, wrote to the 
FCC in June of 2007 warning that placing public safety 
conditions on commercial use of the D block would almost 
certainly fail from both a public safety and a commercial 
perspective. Not listening, the FCC went forward anyway and 
botched the auction. Both the 24 megahertz cleared for public 
safety by the 2005 DTV legislation and the 10 megahertz D block 
originally intended for commercial use have been sidelined. 
Potential auction proceeds have been lost and 2 years have been 
wasted, so here we are again.
    Some are proposing we simply try to the condition auction 
approach again. I strongly urge the FCC, and if we need to, as 
a subcommittee and full committee, to inform the FCC not to do 
that. I don't think that will work. It didn't work the first 
time. There is no reason to expect it will work a second time.
    Passing legislation giving the D block directly to public 
safety for free would give them control over the spectrum, and 
my guess is that some of our witnesses are going to advocate 
that today, but that is not going to help if we don't have the 
money to build it out. An unconditioned commercial auction of 
the D block could help raise money to build a public safety 
network on the 24 megahertz that the 2005 DTV legislation has 
already cleared for first responders. That is also a non-
regulatory way to promote wireless competition and advance our 
broadband deployment. Some are skeptical that the commercial 
providers would help instruct the network and provide the 
service under this scenario. There are some that would also 
argue from an engineering perspective that 24 megahertz is not 
enough to create the public safety network. I hope that we have 
some expert testimony on that issue here today.
    Here is an idea: Why don't we start by answering the 
engineering question first, Mr. Chairman? I am an engineer. I 
still have my engineering license. I am not an electrical 
engineer, however, so I would be worthless if they delegated 
that job to be but I do know how to solve a problem from an 
engineering perspective. Once we know what is technologically 
possible, then we can debate the public policy and then we can 
look at the politics of the public policy. All too often, 
whether it is here or in the network neutrality debate, we send 
policy wonks and bureaucrats to do what us engineers could do 
without the policy wonks and without the politicians. Let us 
get to work, Mr. Chairman. I yield back.
    Mr. Boucher. Thank you very much, Mr. Barton.
    The gentleman from Michigan, Mr. Stupak, is recognized for 
2 minutes.

  OPENING STATEMENT OF HON. BART STUPAK, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman, for holding today's 
hearing on how we can achieve a national interoperable 
broadband network for public safety.
    Last year when the D block auction failed, we convened a 
hearing to discuss with the Federal Communications Commission 
on how to move forward. Our witnesses today present us with a 
few options that warrant review at the FCC and I would like to 
know how their proposals addressed the largest hurdles to the 
original auction, those hurdles being the unique needs of 
public safety network, the high-cost areas of our country to 
serve like rural northern Michigan and the need for this 
network to reach nearly 99 percent coverage to be truly 
national.
    A public safety network cannot operate like a commercial 
network. You can have a dropped call on a commercial service 
but a dropped call for public safety can be the difference 
between life and death. When disaster strikes such as a 
hurricane, consumers do not expect their cell service to be 100 
percent intact but public safety does not have that luxury. I 
have made it clear that a robust, national interoperable public 
safety network will need federal funding to become a reality. 
My colleagues were split 50/50 when I offered an amendment at 
the DTV markup years ago to use the revenue from the 700 
megahertz auction to build the network. We missed our 
opportunity to make progress on this critical issue then, and 
today we are still at first base. This year I offered an 
amendment that was accepted by this committee during a markup 
of the American Recovery and Reinvestment Act, the stimulus 
package, to ensure that interoperable communications needs in 
high-cost areas were eligible for grant funding. However, even 
the full amount of money in the stimulus for broadband funding 
would not meet the estimated costs of a national interoperable 
public safety network which ranges anywhere from $10 billion to 
$20 billion.
    So Mr. Chairman, I am looking forward to hearing from our 
witnesses. Thanks for holding today's hearing. I look forward 
to discussing this with our witnesses on how we can overcome 
these hurdles encountered by last year's auction. But I must 
remind the committee and everyone else, we have been talking 
about interoperability since 1978 with the Air Florida crash 
and I am sure we will be talking about interoperability in 2048 
with the next disaster. I don't think we are going to make much 
progress but I look forward to hearing from the witnesses.
    Mr. Boucher. Thank you very much, Mr. Stupak. Hopefully we 
will make some progress with all of our shared efforts.
    The gentleman from Nebraska, Mr. Terry, is recognized for 2 
minutes.

   OPENING STATEMENT OF HON. LEE TERRY, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEBRASKA

    Mr. Terry. Thank you, Mr. Chairman, for holding this 
important hearing and thank you all, gentlemen, for being here 
to share your thoughts on how to solve this problem. Here we 
are 8 years after September 11 and we have no interoperable 
plan. We thought we did, but embarrassingly, the FCC failed to 
recognize that when you place obligations and restrictions on 
an asset, that you have reduced the value and therefore reduced 
the value to zero, so we are still in the same place we were 
the day after September 11.
    It is extremely important that we set up an interoperable 
system that allows all of our first responders, our police, law 
enforcement agencies, fire and rescue and other agencies to all 
work together in a time of disaster. This includes not only the 
ability to talk to each other and coordinate but in today's 
world that also means video, which means broadband. So maybe it 
is a good thing that the FCC screwed it up and we made sure 
that we have enough spectrum to be able to do a proper job on 
interoperability. But let us learn from the embarrassing 
experience the FCC caused a couple of years ago at the D block 
auction. Let us move forward and let us get the right plan. We 
are here today to hear your ideas of how to move forward on 
this, and I thank you for taking your time. I yield back.
    Mr. Boucher. Thank you very much, Mr. Terry.
    The gentleman from California, Mr. McNerney, is recognized 
for 2 minutes.
    Mr. McNerney. Thank you, Chairman Boucher, for convening 
today's hearing. I want to thank the witnesses for coming here 
today to talk to us. In particular, I am glad to welcome Mr. 
Fontes for coming. He has roots in Manteca, California, which 
is in my district.
    Now, there is wide agreement about the potential benefits 
of a national interoperable public safety network. My district 
not only is home for Mr. Fontes but also for some of the most 
active earthquake faults in North America. So I understand the 
urgency of the problem. I know there has been some problems in 
the past but I think given the several different proposals that 
we have seen and heard of, these all merit our consideration 
and respect. I am confident with members of the committee, the 
FCC and all the stakeholders that we can find a solution that 
makes sense. We don't need to repeat the embarrassing mistakes 
of the past.
    So this hearing is a positive step in the right direction. 
I look forward to your testimony and I yield back the balance 
of my time.
    Mr. Boucher. Thank you very much, Mr. McNerney.
    The gentlelady from Tennessee, Ms. Blackburn, is recognized 
for 2 minutes.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman, and I welcome our 
witnesses also. We are very pleased that you are here, and as 
you are hearing from everyone up here, we realize that things 
need to be done differently this time around and so we 
appreciate that you are helping us revisit what happened with 
the D block. We realize that there should be some lessons 
learned and we have had some successes in the past and we have 
had some not-so-successful outcomes. As we look at this and as 
we hear from you today, we want to keep in mind the consumer 
needs that are there, the public safety, consumer choice, the 
ever-changing technologies that are also being developed and 
innovated and then the need for competition within the 
broadband industry.
    I am really concerned, and I will be interested to hear 
from you all on what you think the amount of spectrum we really 
need to fulfill the public safety needs. Is the 24 megahertz 
enough? Do we need to look at more of this? What was the 
problem with the additional 10 megahertz that we felt like 
could be the dual use there? So I think that those questions 
are best answered by you all and by engineers, as Ranking 
Member Barton said, you know, that you are the engineers 
looking at it, you know how to solve this problem, what the 
expansion of and the use of that spectrum can be. We all 
support a broadband, a good solid broadband policy, and want to 
see us make the most of this, and hearing from you today is 
important. I hope we learn our lessons well. Welcome to the 
committee, and I yield my time back.
    Mr. Boucher. Thank you very much, Ms. Blackburn.
    The gentleman from Vermont, Mr. Welch, is recognized for 2 
minutes.

  OPENING STATEMENT OF HON. PETER WELCH, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF VERMONT

    Mr. Welch. Thank you, Mr. Chairman. This issue for first 
responders is very important in Vermont just as much as it is 
in L.A. and every one of your communities. In Vermont, the 
police are doing a survey, and what they found was that 77 
percent said that coverage was the biggest problem in our 
region. Twenty-seven percent of the respondents--these are law 
enforcement folks and first responder communities--stated that 
the current radio channels are at capacity and often congested 
and interoperability continues to be a huge problem.
    What I am going to hope for in your testimony from a 
Vermont perspective but I think this will apply in general is 
consideration of the following: one, cost allocation for a 
build-out of the national system utilizing the D block 
spectrum; two, specific challenges for border communities--
Vermont has experienced real difficulties relating to a 1962 
treaty which limits use of certain spectrum 100 kilometers from 
the border; and three, how topography affects the efficacy of 
the 700 megahertz system. Overall, there are three basically 
three things that have to be considered going forward. It is 
how do we build the system, how do we make it interoperable and 
how do we allow for competition so that the competition itself 
is going to be an incentive and a promoter of getting the job 
done. I yield back the balance of my time.
    Mr. Boucher. Thank you very much, Mr. Welch.
    The gentleman from Washington State, Mr. Inslee, is 
recognized for 2 minutes.
    Mr. Inslee. Thank you. Listening to these comments, I am 
sort of thinking a real discussion is, how do we free spectrum 
from cell block D. That sort of reminds me of the Escape from 
Alcatraz movie in that we are trying to free the spectrum. Most 
of our interest has been discussed. I just hope that the panel 
will discuss how we do this in a way that actually allows the 
financing of the construction of these networks in fact for 
public safety. It is important to finance it to actually get it 
done, and I look forward to the testimony. Thank you.
    Mr. Boucher. Thank you very much, Mr. Inslee.
    The gentleman from Connecticut, Mr. Murphy, is recognized 
for 2 minutes.

   OPENING STATEMENT OF HON. TIM MURPHY, A REPRESENTATIVE IN 
         CONGRESS FROM THE COMMONWEALTH OF PENNSYLVANIA

    Mr. Murphy. Thank you very much, Mr. Chairman, and thank 
you to the witnesses for being here today.
    As Mr. Welch mentioned, although a lot of the attention in 
our public safety communications infrastructure has been 
focused on Louisiana, New York City, Connecticut, Vermont and 
across the Nation, we have daily communication gaps, and it has 
caused the rise of companies like one in my district, Mutual 
Link, which has developed web-based software that allows for 
very divergent technologies of communications systems to talk 
to each other, and I hope that one of the things that we talk 
about today in addition to a lot of the very important topics 
raised by my colleagues is the ability of companion software 
and companion technology to try to help solve some of the 
existing gaps that are in existence today, that even if we 
solve this problem of the spectrum going forward we are going 
to need to solve in the short term but also that we focus not 
only the issue of money and how we make sure that we have the 
capacity to build this system not only on the questions Mr. 
Barton raised relative to technology but timing as well. What 
is in any of these scenarios the realistic timing and what are 
our strategies in the interim to try to remedy those gaps as 
companies like the one I mentioned are trying to do.
    I thank the witnesses for being here today. I thank the 
chairman for the hearing. I yield back.
    Mr. Boucher. Thank you, Mr. Murphy.
    The gentlelady from Florida, Ms. Castor, is recognized for 
2 minutes.
    Ms. Castor. Thank you, Chairman Boucher, very much for 
calling this important hearing on broadband across the country, 
particularly relating to our first responders. You know, coming 
from Florida here in late September, we are always mindful of 
the threat of hurricanes, and while we are fortunate we have 
had a fairly mild season, the 2004 season is still very fresh, 
and what I hear from first responders back home is that they 
have all the will in the world but we need your expert advice 
to show us the way to accomplish this and get it done.
    So I will be intently interested in your testimony today 
and thank you very much for being here. I yield back my time.
    Mr. Boucher. Thank you very much, Ms. Castor, and thanks to 
all the members who have made opening comments this morning.
    We want to welcome now our panel of witnesses, and I will 
simply say a brief word of introduction about each and then 
call on each in turn for their testimony. Mr. William Bratton 
is the chief of the Los Angeles Police Department and is 
testifying this morning on behalf of the Major Cities Chiefs 
Association. Dr. Brian Fontes is CEO of the National Emergency 
Number Association. Chief Harlin McEwen is chairman of the 
Public Safety Spectrum Trust Corporation and chairman of the 
communications and technology committee of the International 
Association of Chiefs of Police. Mr. Jason Barbour is the 911 
director for Johnston County, North Carolina. Mr. Stacey Black 
is assistant vice president for market development and mobility 
product management at AT&T. Mr. Joseph Hanley is vice president 
for technical planning and services for telephone and Data 
Systems Inc., the parent company of United States Cellular 
Corporation, and Dr. Kostas Liopiros is the founder of the Sun 
Fire Group.
    We welcome each of our witnesses. Without objection, your 
prepared written statements will be made a part of our record 
and we would welcome your oral summary of approximately 5 
minutes each.
    Chief Bratton, we will be happy to begin with you.

   STATEMENTS OF CHIEF WILLIAM BRATTON, CHIEF OF POLICE, LOS 
    ANGELES POLICE DEPARTMENT; BRIAN FONTES, CEO, NATIONAL 
EMERGENCY NUMBER ASSOCIATION; CHIEF HARLIN R. MCEWEN, CHAIRMAN, 
  PUBLIC SAFETY SPECTRUM TRUST; JASON BARBOUR, 911 DIRECTOR, 
 JOHNSTON COUNTY, NORTH CAROLINA; STACEY BLACK, ASSISTANT VICE 
   PRESIDENT, MARKET DEVELOPMENT, AT&T; JOSEPH HANLEY, VICE 
  PRESIDENT, TECHNOLOGY, PLANNING AND SERVICES, TELEPHONE AND 
    DATA SYSTEMS, INC.,; AND KOSTAS LIOPIROS, PRINCIPAL AND 
                FOUNDER, THE SUN FIRE GROUP LLC

                  STATEMENT OF WILLIAM BRATTON

    Chief Bratton. Good morning, Chairman Boucher and members 
of the committee. My name is William Bratton and I currently 
serve as chief of the Los Angeles Police Department. I would 
like to thank you for this opportunity to appear before you 
today to discuss this critical issue.
    I am here today speaking on behalf of the Major Cities 
Chiefs Association, which is comprised of the police chiefs of 
the 63 largest police departments in the United States and 
Canada. The 56 U.S. cities represented America's centers of 
industry, transportation, education and commerce. Their police 
departments provide public safety services to roughly 40 
percent of America's population.
    As you are well aware, the Federal Communications 
Commission auctioned portions of the 700 megahertz spectrum in 
May 2008, and although total auction proceeds significantly 
exceeded expectations, one block of spectrum, the D block, 
failed to attract a successful bidder. This was, in part, 
because of a requirement that the winning bidder had to 
construct a broadband wireless network built to public safety 
standards using the combined D block and adjacent public safety 
700 megahertz spectrum.
    Under current law, the FCC is required to auction the D 
block. We believe this course of action is not in the public 
interest, since it would likely generate little revenue for the 
federal government and allocate to commercial use scarce 
spectrum resources urgently needed by public safety. The Major 
Cities Chiefs urge the Committee and Congress to consider an 
alternative: enact legislation to reassign the D block from the 
auction pool and reallocate it to public safety. This action 
would result a strong foundation for a sustainable nationwide 
public safety wireless broadband network.
    In my 40-year law enforcement career, I have been both a 
witness to and part of the evolution in policing technology. 
When I began as a police officer in Boston, the walkie-talkies 
that were available to us were so big and bulky that no one 
even wanted to carry them. While I was commissioner at the 
NYPD, we developed the COMPSTAT model that utilized timely 
information, gained through technology, and we were able to 
drastically reduce crime in that city. Today, many agencies 
have established real-time crime centers that are leveraging 
new technology to do an even more effective job of fighting 
crime. Very soon, we will be moving to a predictive policing 
model where, by studying real-time crime patterns, we can 
anticipate where a crime is likely to occur. Without question, 
this evolution has been driven by the improvements and need for 
information technology.
    Of course, in order to be useful, information needs to be 
relevant, accurate and timely, but just as important, it must 
be accessible. New technologies such as automated license plate 
readers, biometrics, medical telemetry, automated vehicle 
location and streaming video only scratch the surface of the 
capabilities that will be carried by broadband networks. The D 
block is critical for the accessibility of information to first 
responders across our Nation. Although some have questioned how 
to offset the potential loss of revenue resulting from the D 
block being taken off the auction block, we see this scenario 
in fundamentally different terms. We view the reallocation of 
the D block as a critically needed investment in public safety 
rather than as a loss of revenue. This investment of spectrum 
into public safety will reap large dividends far into the 
future with reduced crime and victims.
    Let me offer an example. In Los Angeles, a recent Rand 
Corporation study showed that the negative economic impact of a 
single homicide in my city is $4 million. Now, mind you, this 
$4 million figure is actually a conservative number. Utilizing 
technology, we have been able to reduce the number of homicides 
in Los Angeles by over 300 over the last several years. This 
has resulted in a net positive economic impact of $1.2 billion 
to my city. Coincidentally, my budget is $1.2 billion. Thus, 
because of our crime reduction efforts, we have actually become 
revenue neutral.
    Investing the D block spectrum for use by public safety 
will benefit both urban areas as well as rural areas. In urban 
areas, the full amount of spectrum will be necessary to support 
the myriad of current and emerging broadband applications that 
are transforming public safety operations nationwide. In rural 
areas, the added spectrum can be used as collateral to form 
public-private partnerships, thereby reducing or eliminating a 
financial burden that such jurisdictions would otherwise have 
to assume to either build their own network or become a 
subscriber on a less reliable commercial broadband network.
    After the failure of the D block auction last year, there 
was significant confusion in the public safety community about 
how best to proceed with this critical issue. I am pleased to 
report today that in the last 5 months the eight major public 
safety organizations have come together in an unprecedented 
effort to forge a consensus on how to make a wireless public 
safety broadband network a reality.
    At this time, I would like to briefly address the issue of 
the pending waiver requests. Under current FCC rules, the 
existing 10 megahertz of spectrum assigned to public safety 
licensee PSBL cannot be utilized and remains fallow. Currently, 
13 jurisdictions including many represented by you have filed 
waiver requests with the FCC seeking to build local or regional 
broadband wireless networks utilizing this spectrum prior to 
the construction of a nationwide network. It is apparent that 
the communities large and small, urban and rural have come to 
the realization that a public safety broadband wireless network 
is a critical and urgent need. They have also come to the 
conclusion that they can construct local networks either alone 
or through a public-private partnership arrangement. We urge 
the FCC to expeditiously review the pending waiver requests and 
grant all requests that meet their requirements. Granting 
waivers to jurisdictions with qualified proposals will permit 
early build-out of local and regional broadband networks.
    In closing, we urge that you take the legislative action 
necessary to invest this spectrum in public safety nationwide. 
The benefits gained from such an investment in first responder 
communications will dramatically transform how we serve the 
public we have all sworn to protect. Thank you for this 
opportunity to address these important issues.
    [The prepared statement of Chief Bratton follows:]

    [GRAPHIC] [TIFF OMITTED] T4100A.003
    
    [GRAPHIC] [TIFF OMITTED] T4100A.004
    
    [GRAPHIC] [TIFF OMITTED] T4100A.005
    
    [GRAPHIC] [TIFF OMITTED] T4100A.006
    
    [GRAPHIC] [TIFF OMITTED] T4100A.007
    
    [GRAPHIC] [TIFF OMITTED] T4100A.008
    
    [GRAPHIC] [TIFF OMITTED] T4100A.009
    
    [GRAPHIC] [TIFF OMITTED] T4100A.010
    
    [GRAPHIC] [TIFF OMITTED] T4100A.011
    
    Mr. Boucher. Thank you very much, Chief Bratton.
    We now have two recorded votes pending on the floor of the 
House. I think we have time to hear from Dr. Fontes and then 
the committee will take a brief recess while members respond to 
the call of the House. Dr. Fontes, we will be pleased to hear 
from you.

                   STATEMENT OF BRIAN FONTES

    Mr. Fontes. Thank you. I appreciate it very much, Mr. 
Chairman.
    I would like to thank you, Mr. Stearns and other members of 
this subcommittee. My name is Brian Fontes and I represent the 
National Emergency Number Association. NENA is a representation 
organization of over 7,000 dedicated 911 and emergency 
communication professionals who receive and manage nearly 250 
million 911 calls annually. In reality, these public safety 
individuals are the first link in the emergency response chain 
that so many Americans rely on. Before I continue, there are 
two members of this committee who are not here and I understand 
their demands for their role in the E-911 caucus as co-chairs 
on the House side, and that is Representatives Eshoo and 
Shimkus. I also want to extend my appreciation to other members 
of this committee for their commitment to the caucus and also 
for their commitment to the advancement of 911.
    Wireless broadband is obviously very important, and in a 
day and age when many sectors of the economy rely on broadband 
services, public safety should have that same opportunity to do 
so. It is obvious that dealing with voice, video and data is in 
fact critical. What is quite interesting as I reviewed many of 
the filings and certainly in the testimonies presented here, 
there is so much agreement that exists among the public safety 
organizations and frankly by some of the comments you have made 
today in your opening statements. We all agree that broadband 
both wired and wireless provides significant public safety 
benefits. A network for public safety must be available 
nationwide, rural as well as urban centers. We all agree that 
there must be funding to build this network, to operate it, to 
maintain it, to buy the equipment and the applications 
necessary. Public safety needs to be able to take advantage of 
the significant research and development that has been poured 
into the commercial sector and to be able to utilize that 
investment. We all agree that the network must meet the 
significant and reasonable needs of public safety.
    Agreement on these issues and the lack of, let me repeat 
that, and the lack of federal funding for a nationwide public 
safety broadband network is in large part why the FCC initiated 
the D block public-private partnership that started this whole 
debate. However, recognizing that this proposal was not 
necessarily designed correctly, the auction was not successful. 
We do believe and I believe that with some modifications and 
some corrections and particularly to the point that you had 
made, Mr. Chairman, about the uncertainty associated with the 
auction once you won the bid that the auction could in fact 
move forward. But NENA also recognizes that there may in fact 
be another failure if the commission were to move in that 
direction. And so we propose yet another alternative, and that 
proposal we believe presents significant benefits to public 
safety while also like other proposals would require 
Congressional action. We believe that the 10 megahertz that is 
available in the public safety band be married to the D block 
and auctioned as a 20 megahertz block. Most parties in the 
technical world realize that a 20 megahertz block provides the 
efficiencies needed for broadband for public safety as well as 
commercial use. We believe that this marriage provides 
substantial benefits to public safety. We would propose that 
half the auction revenues generated from a 20 megahertz auction 
be put into a broadband trust as an initial start for access to 
that network. We believe that the licensee should have imposed 
upon it aggressive but achievable nationwide build-out 
requirements, that public safety has access to all 20 megahertz 
and when needed priority access. We believe that is a benefit. 
Public safety access to the network at a known discounted rate 
should also be established before the auction, and with the 
established reoccurring revenue source to continue to provide 
funds, in essence the funding issue that we all raised today. 
This proposal provides yet another option to be considered.
    To be sure, different options have been proposed by other 
public safety organizations and some wireless carriers. While 
we share many of the same goals, what really is the crux of the 
issue here is what will assure a nationwide broadband network 
with a funding mechanism that will encourage and provide for 
build-out nationwide, and that is it.
    With that said, NENA asks the following two overarching 
factors, that they be nationwide and that there will be funding 
made available. I strongly encourage you, actually all of us, 
to look at unconventional and perhaps, yes, initially unpopular 
ideas that may result in a known and reoccurring source of 
funding, again a primary concern here, for public safety's 
broadband network. For example, at last week's FCC oversight 
hearing, Chairman Genachowski referred to the E-rate as one of 
the great successes of the 1996 Telecom Act, ensuring access to 
the Internet for our Nation's schools and libraries. If access 
to broadband for public safety is as important as we all know 
it is, then surely we can come up with an innovating funding 
proposal as we did for the schools and libraries over a decade. 
This is a monumental effort. There is no doubt about it. NENA 
stands ready to work with all of you and certainly all of 
public safety to make this nationwide broadband network, the 
funding available for it, to become a reality. Thank you.
    [The prepared statement of Mr. Fontes follows:]

    [GRAPHIC] [TIFF OMITTED] T4100A.012
    
    [GRAPHIC] [TIFF OMITTED] T4100A.013
    
    [GRAPHIC] [TIFF OMITTED] T4100A.014
    
    [GRAPHIC] [TIFF OMITTED] T4100A.015
    
    [GRAPHIC] [TIFF OMITTED] T4100A.016
    
    Mr. Boucher. Thank you very much, Dr. Fontes.
    I am also to ask unanimous consent to put three statements 
in today's record: a letter from the Association of Public 
Safety Communications Officials International, a letter from T 
Mobile USA, and a statement from the chief of the Newport, 
Vermont, Police. Without objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Boucher. We are going to stand in recess until the 
conclusion of these two votes. It should not be very long, a 
half-hour at most, I think, probably less. So please be patient 
and we will return shortly.
    [Recess.]
    Ms. Eshoo [presiding]. I don't want to break up the 
festivities, but I think that we can get back to our witnesses. 
I think that Chief McEwen is next.
    Chief McEwen, you are on. I understand the challenge. It is 
hard for us to get into our seats too.

                   STATEMENT OF HARLIN McEWEN

    Chief McEwen. Thank you, Acting Chairman, and thank you, 
Chairman Boucher and Ranking Member Stearns and distinguished 
members of the committee for the opportunity to appear before 
you today. We applaud the efforts of the subcommittee members 
and other Members of Congress for your continuing interest and 
support in our efforts to create a nationwide public safety 
wireless broadband network.
    My name is Harlin McEwen and I am the retired police chief 
for the city of Ithaca, New York, and I am also retired as a 
deputy assistant director of the FBI in Washington. I serve as 
the chairman of the communications and technology committee of 
the International Association of Chiefs of Police, a position I 
have held for more than 30 years. I also serve as the elected 
chairman of the Public Safety Spectrum Trust, a nonprofit 
corporation that consists of representatives of 15 national 
public safety organizations. The principal purpose of the PSST 
is to serve as the licensee and manager for the 700 megahertz 
nationwide public safety broadband license commonly referred to 
as the PSBL. The PSBL was granted to the PSST on November 19, 
2007, and includes the 10 megahertz of broadband spectrum that 
is intended to be one-half of the spectrum that will be used to 
develop a shared commercial public safety network. The other 
half of the spectrum will come from the so-called D block.
    This is not the first time I have appeared before you on 
this topic but I want to once again stress why it is so 
important for the United States to have a nationwide public 
safety broadband network. Any review of major crises such as 9/
11 or Katrina shows how much the personal efforts and 
effectiveness of our Nation's first responders, police, 
firefighters, emergency medical personnel and others, are 
diminished or undermined when the communications infrastructure 
that supports our efforts fails or is insufficient for the 
needs of public safety professionals. Our vision is to embrace 
the capabilities of broadband technology but at the same time 
not forget that public safety needs a network that is hardened 
to withstand catastrophes and has extended backup power, 
satellite backup and other important features so that it will 
be available and reliable in a crisis. Establishing and 
building out the wireless broadband network will be a 
significant challenge but it is one that very much needs to be 
done to meet our national security and public safety needs for 
the years to come.
    As you are aware, the 700 megahertz spectrum auction 
conducted by the FCC in early 2008 did not attract a winning 
bid for the D block. Since then the FCC has sought several 
rounds of comment on various new proposals and options but has 
taken no further action. During the past 16 or so months, the 
PSST and the public safety community have worked diligently to 
examine options that will enable us to be successful and also 
preserve requirements that will result in a network designed to 
deliver up-to-date, affordable and interoperable broadband 
communications capabilities to our country's first responders. 
The PSST has been working with the FCC as it also examines 
various options.
    In the total absence of conventional funding alternatives, 
the PSST supports the public-private partnership concept where 
the private partners which will be using some of the shared 
spectrum for their own commercial purposes and profit will be 
the principal source of financial support to the PSST. For 
example, the second report and order envisions that the use of 
public safety spectrum by the private partners will be under a 
lease agreement with the PSST. Since I last appeared before 
you, we have worked hard to achieve consensus within the public 
safety community to move this process forward. All of the major 
national public safety organizations with the exception of the 
National Emergency Number Association have reached consensus on 
the preferred approach for success. The consensus position is 
for Congress to adopt legislation that will direct the FCC to 
remove auction requirements from the D block and to instead 
allocate it to the national public safety broadband license. 
This would then give public safety 20 megahertz of broadband 
spectrum that would enable us to proceed with public-private 
partnerships through a request for proposal process that would 
identify the best private partners to build out the network. 
This will also give us the ability to develop strong public-
private partnerships locally and nationally that will provide 
the private funding necessary through network leasing and 
sharing agreements without requiring dependence on federal, 
State and local funding or auction revenue.
    We look forward to working with you in this committee to 
make the public safety broadband network a reality in the near 
future. We urge you to support the proposed legislation and 
consensus position that I have described. Our efforts to get a 
nationwide public safety wireless broadband network have been 
going on for a very long time and we now call upon you to help 
us achieve this most important public safety goal. Thank you.
    [The prepared statement of Chief McEwen follows:]

    [GRAPHIC] [TIFF OMITTED] T4100A.017
    
    [GRAPHIC] [TIFF OMITTED] T4100A.018
    
    [GRAPHIC] [TIFF OMITTED] T4100A.019
    
    [GRAPHIC] [TIFF OMITTED] T4100A.020
    
    [GRAPHIC] [TIFF OMITTED] T4100A.021
    
    [GRAPHIC] [TIFF OMITTED] T4100A.022
    
    [GRAPHIC] [TIFF OMITTED] T4100A.023
    
    [GRAPHIC] [TIFF OMITTED] T4100A.024
    
    [GRAPHIC] [TIFF OMITTED] T4100A.025
    
    Ms. Eshoo. Thank you, Chief.
    Mr. Barbour.

                   STATEMENT OF JASON BARBOUR

    Mr. Barbour. Thank you, Acting Chairman. Chairman Boucher, 
Ranking Member Stearns and members of the subcommittee, thank 
you for providing me the opportunity to appear before you here 
today. My name is Jason Barbour. I am serving as the 911 
director for Johnston County located in North Carolina. I am 
also an active captain with the town of Clayton Fire Department 
as well as a deputy sheriff for Johnston County. I am the past 
president for the National Emergency Number Association, 
commonly referred to as NENA. I currently serve as NENA's 
representative on the Public Safety Spectrum Trust, commonly 
referred to as the PSST. I am also a member of the Association 
of Public-Safety Communication Officials International, 
commonly referred to as APCO. While I am actively involved in 
all of these organizations, I am here today only on the behalf 
of Johnston County, a rural yet fast-growing county in eastern 
North Carolina. In my testimony today, I would like to make 
three points. First, broadband technologies provide significant 
benefits for emergency communications. Ensuring that public 
safety agencies and emergency responders are connected to 
broadband, wireline and wireless, must be a national priority. 
Second, any actions taken by Congress or the FCC must ensure 
that a sustainable funding source is in place to pay for public 
safety's access to and use of broadband. Third, any proposal 
for the establishment of a wireless public safety broadband 
network must take into consideration the needs of rural America 
and ensure access to the network in all areas of the country.
    How do we get there in rural America? No one doubts the 
potential of broadband for public safety in areas urban and 
rural. However, in rural America, there are legitimate 
questions concerning how wireless public safety broadband 
network can be paid for and built out. No one doubts that 
public safety agencies would love to have access to their own 
network and operate their own broadband network but the reality 
is, in many areas there is simply no way to fund the build-out 
and continued use of such networks. Whether public safety has 
access to 10, 20 or 50 megahertz of spectrum, the spectrum is 
only as good as the ability to pay for it and build it out. 
That is why I along with the rest of the national public safety 
community was particularly interested in the FCC's original D 
block concept in which public safety would have access to a 
broadband network, but would not have to pay for the cost of 
building the network. Whether or not the original D block 
public partnership can still work is a legitimate question. A 
known funding source and a known build-out schedule 2 years ago 
and, regardless of the specific plan that is adopted, they 
remain critical issues today, particularly in rural America.
    I commend all the organizations involved in this debate for 
putting the ideas on the table intended to result in positive 
solutions for public safety. Without commenting on any of the 
individual proposals, I believe several questions must be 
answered. First and foremost, is there an identified 
reoccurring funding source to pay for access to and use of the 
network for all areas? Would the proposal result in a 
nationwide wireless broadband network? Is there a high 
likelihood of success that such a network will be built out 
nationally on a known schedule? Will the network meet the 
reasonable and important needs of public safety? Will the plan 
ensure that the public safety network remains current and 
benefits from commercial research and development? If the plan 
calls for public/private partnerships, is there sufficient 
oversight by the FCC or other appropriate authority to ensure 
that such agreements are adhered to? If an approach is adopted 
that does not involve an auction with build-out requirements by 
commercial entities, is there sufficient evidence to conclude 
that there is a need for additional spectrum in rural areas 
and, therefore, an assurance that non-mandatory partnerships 
will emerge and result in a nationwide network being built in 
less populated areas? I am particularly interested in the 
answers to these questions for rural America.
    Whatever the details of any plan may be, it is essential 
that they are reviewed to ensure that the result is a 
nationwide network or network of networks sufficient to meet 
the needs of public safety and that near- and long-term funding 
is available for public safety to access and use the network.
    Thank you for the opportunity to be here today.
    [The prepared statement of Mr. Barbour follows:]

    [GRAPHIC] [TIFF OMITTED] T4100A.026
    
    [GRAPHIC] [TIFF OMITTED] T4100A.027
    
    [GRAPHIC] [TIFF OMITTED] T4100A.028
    
    [GRAPHIC] [TIFF OMITTED] T4100A.029
    
    [GRAPHIC] [TIFF OMITTED] T4100A.030
    
    [GRAPHIC] [TIFF OMITTED] T4100A.031
    
    Ms. Eshoo. Thank you for your excellent testimony.
    Mr. Black.

                   STATEMENT OF STACEY BLACK

    Mr. Black. Acting Chairman and members of the subcommittee, 
thank you for the opportunity to appear before you today to 
discuss AT&T's support of public safety's proposals for the 
implementation of interoperable wireless broadband. As AT&T has 
been a leading provider of wireless data services to the public 
safety community for over a decade, we have a unique 
perspective that drives our rationale for this support. AT&T's 
support of public safety's desire to build out regional 
networks is based on our experience that agencies want the 
ability to tailor a network to meet their unique local needs.
    First, agencies need the flexibility to choose a network 
management model that meets their financial as well as their 
communications requirements. Secondly, local agencies have a 
better understanding of the terrain and population centers that 
will or will not require coverage. Lastly, local deployments 
can be constructed using existing grants and procurement 
programs that have been traditionally used for land mobile 
radio and other communications at a much lower cost than what a 
nationwide network would entail. One of the concerns that has 
been expressed about this regional approach is that it may not 
include small and rural communities. AT&T supports a unique 
proposal that could dramatically reduce the cost of a typical 
broadband deployment, thus making it affordable to provide 
coverage for smaller communities. This approach has been 
referred to as the leveraged network model as it provides a 
dedicated private network experience that leverages the core 
infrastructure of a commercial operator. This model has the 
potential to jump-start deployment of regional networks since 
most of the core build-out has already been completed. This 
model addresses two primary concerns of public safety: It gives 
them exclusive access to spectrum, eliminating the concern of 
sharing with commercial users, and it reduces the overall cost 
by leveraging the commercial operators' existing core network 
and provisioning support in billing systems.
    AT&T also supports and applauds public safety's 
recommendation of LTE as the common technology standard. Known 
as long-term evolution, LTE is an internationally recognized 
wireless standard that is for next-generation. The LTE standard 
will benefit public safety in many ways. First, it will ensure 
that each network, even those that are built independent of 
each other, will allow seamless roaming for visiting public 
safety users. It will encourage early deployment and will build 
momentum among public safety agencies and as more regional 
networks are deployed they will form the backbone of a network 
of networks that will ultimately provide public safety with 
interoperable broadband across the country. Second, it will 
allow public safety to leverage the massive economies of scale 
of the commercial operators who are also deploying LTE at 700 
megahertz. Third, it will allow a region to confidently design 
and deploy a network knowing that it will be interoperable with 
later deployed networks. Lastly, AT&T envisions that public 
safety users will be able to roam from networks onto commercial 
networks as seamlessly as cellular phones roam today.
    Finally, AT&T supports public safety's request to 
reallocate the D block as public safety spectrum to provide a 
full 20 megahertz of broadband capacity. Over the last 5 years 
as AT&T has introduced next-generation wireless data 
capabilities, public safety applications have become more 
bandwidth intensive and average data usage has doubled each 
year from 11 bits per user in 2005 to almost 200 megabits per 
user per month in 2009. Our experience tells us that as public 
safety deploys LTE, the vendor community will begin to develop 
new applications that require even more bandwidth. By providing 
the full 20 megahertz now, public safety will be able to deploy 
a single-bay station radio and devices that utilize the 
contiguous spectrum instead of being forced to add non-
contiguous spectrum at a later time which will require new 
equipment and additional taxpayer expense.
    Another thing to consider is that public safety is unique 
in that during an incident or an emergency, network demand is 
typically concentrated in a small geographic area. While 
commercial carriers can deploy additional capacity at 
preplanned events, public safety does not have the luxury of 
planning the next disaster or incident that will likely involve 
multiple jurisdictions in a defined geographic area. Therefore, 
having the full 20 megahertz throughout a broadband deployment 
will provide public safety the additional capacity when needed 
most, during emergencies.
    Reallocating the D block to public safety while using the 
leverage network model will benefit the smaller and rural 
communities that may not have all the funding needed to deploy 
a dedicated broadband network. Not only will the build-out cost 
be reduced but it also provides these communities the spectrum 
needed to incent a commercial operator to enter into a public-
private partnership that will result not only in broadband for 
public safety but for the community as well.
    In closing, we encourage you to engage the public safety 
community on these proposals directly as they are the true 
beneficiaries of them. However, AT&T feels strongly that this 
is the last and best opportunity to provide public safety with 
the broadband capability that it needs in pursuit of its 
mission. It is simply the right thing to do.
    Thank you, and I am prepared to answer any questions.
    [The prepared statement of Mr. Black follows:]

    [GRAPHIC] [TIFF OMITTED] T4100A.032
    
    [GRAPHIC] [TIFF OMITTED] T4100A.033
    
    [GRAPHIC] [TIFF OMITTED] T4100A.034
    
    [GRAPHIC] [TIFF OMITTED] T4100A.035
    
    Ms. Eshoo. Thank you, Mr. Black.
    Mr. Hanley.

                   STATEMENT OF JOSEPH HANLEY

    Mr. Hanley. Thank you, Chairman Eshoo, Ranking Member 
Stearns and members of the subcommittee. Thank you for the 
opportunity to be here today. My name is Joe Hanley and I am a 
vice president at TDS, the parent company of U.S. Cellular. 
U.S. Cellular serves over 6.2 million customers and has 
received eight consecutive J.D. Power awards for highest call 
quality in the north central region.
    In addition to commercial users, our networks serve 
hundreds of public safety agencies. Like other wireless 
carriers, we need more spectrum to support fourth-generation 
services. U.S. Cellular is prepared to play a significant role 
in the shared network I will discuss.
    Two goals are essential to the public interest. First, we 
must provide nationwide interoperable broadband services for 
public safety. These services must be available throughout the 
Nation, not just for a few select communities. They should be 
provided at the lowest possible cost to taxpayers and public 
safety agencies. The second goal is to expand competitive 
broadband services for consumers. Broadband is a powerful 
catalyst for economic growth. However, spectrum, the life blood 
of broadband service and wireless competition, has become 
highly concentrated and more must be made available.
    The good news is that these two goals are highly 
complementary. This is not a choice between helping public 
safety or providing broadband services to consumers. Shared 
networks and shared use mean lower costs and better services 
for all users, and the combined user base may be essential to 
getting cost-effective equipment for this band.
    There are two potential paths. First, a group of public 
safety organizations is asking Congress to reallocate the D 
block, creating a combined 20 megahertz block licensed to the 
PSST. This proposal can provide a basis for moving forward but 
it needs to be enhanced to ensure a full partnership between 
commercial operators and public safety with a fair opportunity 
for non-national carriers. We are encouraged by statements 
suggesting that many needed elements are already on the table: 
Shared commercial public safety use, commercial construction 
and operation of the network, participation of regional and 
smaller carriers, and competitive bidding for partners.
    Legislation must make these concepts explicit, and we 
recommend the following improvements. First, the legislation 
should require that the FCC adopt rules for a fair selection 
process including non-national carriers. Second, it should 
provide for commercial use of a reasonable portion of the 
overall 20 megahertz of capacity. Third, it should promote 
long-term stability and operator continuity similar to what the 
operator would have as a licensee. Fourth, it should require 
reasonably sized geographic areas for regional partnerships. 
States or the 55 regional planning areas would work.
    Let us turn to the second option, which is available now to 
the FCC under existing law. Since the auction, there has been 
recognition that all-or-nothing national license contributed to 
the auction's failure. Consensus has developed on improvements 
including regional licensing and public safety has made 
progress on standards including a technology choice, LTE. After 
granting waivers for a few early builds, we propose a two-stage 
auction. Stage 1 would include commercial bidders and would 
generate revenues for the Treasury. In stage 2, for any license 
left unsold, the PSST could submit a bit with no monetary 
payment but a best-efforts commitment to build the network. 
Thus, after providing an opportunity for interested commercial 
operators to proactively bid, any remaining markets would fall 
back to competitive selection process run by the PSST. Thus, 
every market in the country would be assigned a licensee. The 
imperative is to get the process moving. The FCC should not 
wait for legislation but should develop rules now for a 
successful auction of D block licenses. If reallocation 
legislation is adopted, this work will still have moved the 
ball forward on standards and the FCC can readily adapt its 
rules.
    So to summarize, shared network and shared use meets both 
goals: public safety and competitive broadband deployment. 
Either path can work, properly legislation or a two-stage 
auction provide it includes opportunities for full commercial 
partnership and non-national operator participation. We believe 
an auction can be successful and would generate revenues for 
the Treasury. The key is to move forward, and the FCC should do 
so now under its existing authority.
    Thank you very much for the opportunity to provide this 
testimony.
    [The prepared statement of Mr. Hanley follows:]

    [GRAPHIC] [TIFF OMITTED] T4100A.036
    
    [GRAPHIC] [TIFF OMITTED] T4100A.037
    
    [GRAPHIC] [TIFF OMITTED] T4100A.038
    
    [GRAPHIC] [TIFF OMITTED] T4100A.039
    
    [GRAPHIC] [TIFF OMITTED] T4100A.040
    
    [GRAPHIC] [TIFF OMITTED] T4100A.041
    
    [GRAPHIC] [TIFF OMITTED] T4100A.042
    
    [GRAPHIC] [TIFF OMITTED] T4100A.043
    
    [GRAPHIC] [TIFF OMITTED] T4100A.044
    
    [GRAPHIC] [TIFF OMITTED] T4100A.045
    
    [GRAPHIC] [TIFF OMITTED] T4100A.046
    
    [GRAPHIC] [TIFF OMITTED] T4100A.047
    
    Ms. Eshoo. Thank you, and I apologize for mispronouncing 
your name. It is because they have misspelled your name on your 
card. They have an E on it. So you are Hanley, not Haneley. 
Thank you very much for your testimony.
    Doctor, let us see if I pronounce your name correctly, 
Liopiros. Welcome.

                  STATEMENT OF KOSTAS LIOPIROS

    Mr. Liopiros. Acting Chairman Eshoo, Ranking Member Stearns 
and distinguished members of the subcommittee, thank you for 
inviting me to discuss the issue of a national interoperable 
broadband network for public safety. My name is Kostas Liopiros 
and I am the principal of the Sun Fire Group, an independent 
technology management consultancy located in Alexandria, 
Virginia.
    Sound policy dictates that spectrum should be allocated and 
assigned in a manner that benefits all Americans. The approach 
that best serves both the public safety community and consumers 
will be to auction the D block solely for commercial use with 
the proceeds of the auction used to help fund a nationwide 
public safety broadband network on the 10 megahertz of 700 
megahertz spectrum that has already been allocated for public 
safety. This approach will provide the funds needed to develop 
a state-of-the-art interoperable public safety broadband 
network while providing sorely needed spectrum for the advanced 
wireless broadband services that consumers now demand.
    Public safety communications are critically important for 
the public welfare and they need to be improved, especially in 
support of first responders. In general, public safety 
communications systems are still not fully interoperable, 
making it difficult for public safety agencies and first 
responders to communicate with one another. Further, public 
safety systems generally do not provide the wireless broadband 
capabilities increasingly commonplace in the commercial market 
that are becoming essential to the sharing of data. The federal 
government has allocated a great deal of spectrum in order to 
solve these problems. Nearly 100 megahertz of spectrum, 99.7 
megahertz to be precise, has been allocated for public safety 
use. Of this nearly 100 megahertz total, less than about 17 
megahertz between 150 and 160 megahertz is used currently to 
support the majority of public safety communications systems. 
The remaining spectrum which has been allocated to public 
safety since 1996 is still not widely used. This includes the 
24 megahertz of prime spectrum and 700 megahertz band of which 
10 megahertz has been designated for public safety broadband 
services.
    At this point, lack of spectrum is not the key impediment 
to improving public safety communications. Congress has granted 
public safety spectrum for free but as you have heard many 
times today, funds to use the spectrum to construct a 
nationwide broadband network are still lacking. Public safety 
agencies need funding to build and maintain a public safety 
broadband network in the 700 megahertz band. With the current 
economic crisis and severe resource constraints that confront 
most local and state governments, obtaining these funds is even 
more challenging than ever. Without financial support, a 
nationwide interoperable broadband public safety network will 
not be possible.
    Congress needs to address the funding needs, especially as 
public safety moves to adopt broadband communications. As a 
first step, I recommend that Congress should strongly consider 
legislation to enable the FCC to auction the 700 megahertz D 
block for purely commercial use and direct the proceeds of that 
auction to the public safety community for the construction and 
maintenance of a public safety broadband network. Although the 
proceeds from the auction may not be sufficient to fully fund a 
nationwide public safety broadband network, they will provide a 
very substantial and valuable down payment on the network, 
kick-starting construction and making the remaining funding 
challenges much more manageable than before.
    Now, the existing 10 megahertz of 700 megahertz spectrum 
that has already been allocated to public safety is, I believe, 
sufficient to support an interoperable broadband network, 
especially given the new efficient wireless broadband 
technologies now becoming available. More than 10 cities and/or 
states have already sought FCC approval to begin construction 
of broadband networks on the existing 10 megahertz of public 
safety spectrum in the 700 megahertz band using long-term 
evolution technology, which is the recommended follow along to 
the GSM standard.
    A number of public safety organization agencies have also 
endorsed the use of long-term evolution technology for 
constructing public safety broadband networks. LTE has multiple 
and scalable channel bandwidths and by design can accommodate 
the allocations in the 10 megahertz public safety broadband 
plan. By adopting LTE technology, public safety can leverage 
the ongoing commercial developments and infrastructure and 
equipment to reduce network deployment and operation costs.
    Unlike public safety, however, the commercial wireless 
industry does face a spectrum crunch. Growing demands for new 
advanced broadband services including wireless broadband can be 
met only if sufficient spectrum is available for wireless 
carriers to provide these services. Wireless carriers in the 
United States have estimated the wireless industry will need 
access to at least an additional 200 megahertz of commercial 
spectrum within 5 years in order to meet growing consumer 
demand. That is a 5-year forecast. The International 
Telecommunications Union in studies preparatory to the 2007 
World Radio Conference, WRC-07, has estimated that by the year 
2010 about 1 gigahertz of additional spectrum will be needed 
globally. Auctioning the 700 megahertz D block for commercial 
purposes would enhance the opportunities for the provision of 
competitive broadband services by existing carriers as well as 
new entrants. Of course, 10 megahertz of spectrum will not in 
itself alleviate the projected commercial spectrum shortage. 
Clearly, more needs to be done in terms of identifying the 
allocated spectrum for future commercial use but is a good 
first step and represents the best alternative use of the 
spectrum I have discussed.
    In ideal circumstances, unrestricted amounts of spectrum 
would be available to meet the demands of all commercial 
carriers and public safety agencies. However, that is not the 
case. Spectrum is a rare and important national resource. 
Congress must balance the needs of public safety with that of 
consumers and focus on the best solution that considers 
existing conditions and future opportunities. Auctioning the D 
block for commercial use would provide a much-needed infusion 
of funds to jump-start the construction of a national 
interoperable broadband network for public safety while 
facilitating competition in the wireless marketplace.
    Mr. Chairman, thank you again for the invitation to testify 
today. I welcome any questions the committee may have.
    [The prepared statement of Mr. Liopiros follows:]

    [GRAPHIC] [TIFF OMITTED] T4100A.048
    
    [GRAPHIC] [TIFF OMITTED] T4100A.049
    
    [GRAPHIC] [TIFF OMITTED] T4100A.050
    
    [GRAPHIC] [TIFF OMITTED] T4100A.051
    
    [GRAPHIC] [TIFF OMITTED] T4100A.052
    
    [GRAPHIC] [TIFF OMITTED] T4100A.053
    
    Mr. Boucher. Thank you very much, Dr. Liopiros, and thanks 
to all of our witnesses for their testimony here this morning.
    I have several questions, and the first one I think can be 
answered with simple yes or no answers, and so let me go down 
the row. I am going to start with Chief Bratton. Dr. Liopiros 
has just talked about the adequacy of the 10 megahertz of 
spectrum currently in the hands of the public Safety Spectrum 
Trust for utilization of the broadband services that we hope to 
see built out on a nationwide basis. If I understood his 
comments correctly, he is suggesting that the latest generation 
of wireless technology, LTE, should be satisfactory to enable 
that 10 megahertz to serve your needs. Is there general 
agreement that the 10 megahertz is enough and that we can then 
look for alternative ways of disposing of the 10 megahertz D 
block? Chief Bratton?
    Chief Bratton. No.
    Mr. Boucher. Dr. Fontes?
    Mr. Fontes. It is a difficult yes or no answer.
    Mr. Boucher. I am sorry?
    Mr. Fontes. Difficult yes or no.
    Mr. Boucher. Be brief, please.
    Mr. Fontes. Pardon?
    Mr. Boucher. Be brief, please.
    Mr. Fontes. Probably not.
    Mr. Boucher. OK. That is two no's. Chief McEwen?
    Chief McEwen. No.
    Mr. Boucher. Three. Mr. Barbour?
    Mr. Barbour. With my limited knowledge, no.
    Mr. Boucher. That is four.
    Mr. Black. No.
    Mr. Boucher. You said no. That is five. Mr. Hanley?
    Mr. Hanley. No.
    Mr. Boucher. OK. Well, Dr. Liopiros, you seem to be 
outvoted.
    Mr. Liopiros. It is a question of requirements, sir, and I 
haven't really seen any good studies or analysis that said it 
is sufficient or not sufficient. A lot of the evidence I hear 
is anecdotal. Of course, 20 megahertz is better than 10 
megahertz, using more capacity. Thirty megahertz, 40 megahertz 
is better than 10 megahertz.
    Mr. Boucher. But you are suggesting that 10 megahertz with 
appropriate technology would be good for the----
    Mr. Liopiros. I am suggesting that it would be good at 
least for a start. The agencies that applied for----
    Mr. Boucher. I am going to move on because I have got some 
other questions, but thank you. I am not trying to cut you off. 
I just have limited time.
    The problem of course is if we take not only the 10 
megahertz currently in the hands of the trust but add to that 
the D block and provide that to the public safety community, 
then we don't have the D block available to help us in any way 
with the financing costs for building out in what would then be 
20 megahertz of spectrum with the requisite technology. The 
debate up until now has focused on possible creative ways to 
use the D block to obtain financing for build-out of equipment 
in the 10 megahertz that the public safety community already 
has, and we are going to continue to focus on that while 
considering your comments that it would be nice to have an 
additional allocation of spectrum beyond the 10 megahertz. We 
are going to look for creative ideas that will go beyond what I 
now have counted as four different proposals for utilization of 
the D block. Those four proposals are an auction that involves 
a public-private partnership, somewhat along the lines of the 
failed auction in 2008; just a straight sale of D block to a 
commercial provider who prevails at auction; a gift of that D 
block to the public safety community; and then I think Dr. 
Fontes put a fourth possible approach on the table today by 
suggesting that there be an auction to a public-private 
partnership of all 20 megahertz, the 10 megahertz now in the 
hands of public safety plus the D block. That is a proposal I 
think made this morning for the first time. So I am going to 
ask for some brief comments from each of you and my time is 
almost expired, so again, be as brief as you can. Of these 
proposals before us, do any of these appeal to you? Do you 
think that there is some way that if we pursued any of these 
approaches we would derive the financing necessary to assure 
that the equipment is supplied in the spectrum to have a 
nationwide network? I am told that the price of that might be 
anywhere between $10 billion and $20 billion, and just a pure 
auction of the D block I am also told might derive no more than 
$3 billion, so that is about 10 percent of what the total cost 
would be. This is the conundrum we face, how do we go about 
doing this. So just a quick answer, your recommendations 
against the four proposals currently here, and if you don't 
like any of those, let me have your own idea of what you think 
would work. Chief Bratton, do you want to begin?
    Chief Bratton. Thank you, sir. Reinforcing my testimony 
that we believe it should just be given over to public safety 
and that would allow immediate movement of the waiver city 
requests where they already have the capability to start moving 
forward. That would allow also by implementation of those some 
13, I think the number of waivers, to get up and running. We 
could start evaluating the efficacy of the systems that they 
are putting into place. And as I have testified, we believe 
that would be an investment and not a cost in the sense of 
giving it over to us. We really do believe that there is an 
ability to meet both major city needs but also the rural needs, 
as Harlin McEwen has talked about in his testimony.
    Mr. Boucher. I assume that if it were given to you, if you 
subleased it or otherwise disposed of it, that would produce 
some amount of revenue that you could use to build out. Do you 
think that would produce sufficient revenue for you to build 
out or would you have to look to the local government in Los 
Angeles for the balance?
    Chief Bratton. I would be, I think, with what we are 
proposing, there would be no uniform way of moving forward. It 
really would be dependent on local, regional initiatives and--
--
    Mr. Boucher. So you are saying local resources would have 
to supplement whatever revenue you derived?
    Chief Bratton. That is a possibility, or local resources 
that come in through other funding sources. It does allow for a 
variety of ways to fund this as far as moving forward.
    Mr. Boucher. Thank you. Let me move on, given the 
limitation of time.
    Dr. Fontes, just very briefly, and address, if you would, 
the problem in rural areas where the local resources might not 
be adequate to supplement whatever is derived from disposing of 
the D block were it given to the locality.
    Mr. Fontes. And that essentially is what NENA's concern has 
been all along. In a report that many of my colleagues in 
public safety have endorsed, in that report itself it says that 
for many years to come, and it would take many years under this 
private partner relationship and then allowing public safety to 
negotiate agreements, it would take many years to build a near-
ubiquitous service, and in the interim public safety in many 
parts of the country including rural America will have to rely 
on commercial services.
    Mr. Boucher. Dr. Fontes, thank you. I am going to move on 
to Chief McEwen.
    Chief McEwen. Well, as the chairman of the Public Safety 
Spectrum Trust, I have been involved in discussions, ongoing 
discussions with all of the possible commercials. The large two 
players in the 700 megahertz arena are AT&T and Verizon. I have 
been talking with U.S. Cellular, who is seated here today. I 
have had discussions with rural carriers in several States and 
with the National Rural Telecommunications Cooperative. There 
are a number of people who tell me, I am not a businessman, I 
am a public safety person, that this is a possible outcome, a 
good outcome if we had that spectrum that we could partner with 
people in rural areas and in the major urban areas to make this 
happen----
    Mr. Boucher. To make the build-out happen?
    Chief McEwen. That is right, to make a build-out using in 
some cases existing commercial infrastructure and in other 
cases possibly building out in rural areas where it needs to be 
built out. So I believe it is possible----
    Mr. Boucher. OK. Thank you, Chief McEwen.
    Mr. Barbour, very briefly, please.
    Mr. Barbour. The two plans I think that only speak to 
funding for rural America is the continued public-private 
partnership auction or auctioning it all off with the proceeds 
going to public safety.
    Mr. Boucher. Thank you.
    Mr. Black.
    Mr. Black. Thank you. Well, we continue to believe a 
bottoms-up approach, taking this at the regional level and for 
individual region to take into consideration the surrounding 
rural communities. They have existing funding mechanisms that 
they have available to them now. They have also grants 
available to them. And then of course, the lease of spectrum 
that they can do by having the additional 10 megahertz would 
provide an additional revenue source, and then finally using 
the leverage network model would greatly reduce the amount of 
capital required to build the area.
    Mr. Boucher. Thank you.
    Mr. Hanley.
    Mr. Hanley. So shared network model using 20 megahertz of 
spectrum and leveraging operator assets, it will be the lowest 
cost and that reduces the funding requirement. Shared use 
allowing commercial capacity to be deployed on the network will 
contribute value, which will allow the cost to public safety of 
the network to be reduced. There are several ways to get there 
but the key is that we have to get to a shared model with a 
full partnership between public safety and commercial----
    Mr. Boucher. Dr. Liopiros, very briefly, please.
    Mr. Liopiros. The two options that will reduce the funding 
requirements but not eliminate them are the auctioning the 
spectrum for commercial use or the option that NENA proposed in 
terms of combining the spectrum auction and giving some of the 
proceeds to public safety. Why half instead of all the 
proceeds, I am not sure, but that would certainly contribute.
    Mr. Boucher. Well, thank you all very much, and I have 
taken a large amount of time here. The chair intends to be very 
generous with other members in terms of their questioning time.
    Let me just comment that I appreciate the thoughtfulness 
you have applied to this. I am not sure that any of these 
proposals if implemented derive the revenues that we have to 
have in order to build out this spectrum, particularly in rural 
areas where local resources are quite limited and could not 
supplement whatever revenue comes from whatever utilization is 
made of the D block, and so my thought is that at the end of 
the day we are going to find ourselves looking for some kind of 
general fund revenues in order to finance this. So I honestly 
don't know another avenue that we have open that can provide 
the assurance we have to have that we are going to get where we 
need to be.
    My time is expired, and at this point I am pleased to 
recognize the gentleman from Florida, Mr. Stearns.
    I guess I am not going to be recognizing Mr. Stearns. My, 
how you have changed. The gentleman from Illinois, Mr. Shimkus, 
is recognized for 5 minutes.
    Mr. Shimkus. Thank you, Mr. Chairman, and I have two, maybe 
a third one if I have time, but it is going to go to the whole 
panel, and it is based upon the opening statement that I made.
    First of all, if the commission were to re-auction the D 
block or if Congress decided to intervene, how should the 
licenses be divided, or should they? Should there be a national 
license or should there be a subdivision and what would that 
subdivision be if there were to be one? There is a lot of us 
who believe that a national license obviously was part of the 
problem. It didn't do the trick.
    So let me start with Chief Bratton first and just go from 
your right to left, my left to right, and if you would answer 
that, I would appreciate it.
    Chief Bratton. Our perspective is that either one would 
work.
    Mr. Shimkus. A national or any subdivision?
    Chief Bratton. That is correct.
    Mr. Fontes. I think in encouraging more competitors, I 
think regional licenses whether it is a collection of States or 
breaking down the State level would probably attract more 
participants to the auction and enable more rural 
participation.
    Chief McEwen. The Public Safety Spectrum Trust can support 
either option. The regional approach is probably the more 
practical one now, having the failed first auction.
    Mr. Shimkus. And let me chime in because part of the 
question was, regions as defined how. Do we have a better way 
of defining regions? I mean, if you don't, that is fine, but 
because of your expertise if you know of one, if you share 
that?
    Chief McEwen. In the third further notice which is on the 
record that was put out last year, it did suggest a regional 
approach for 50-some regions. In other words, it was based on 
the 700 megahertz regions now plus a couple of offshore regions 
so there is a regional makeup that we basically supported in 
those comments.
    Mr. Shimkus. Thank you.
    Mr. Barbour. I think the wish list would be a national 
licensee but I think in reality it is going to be a regional 
approach.
    Mr. Black. If it is a re-auction, we would support a 
regional approach.
    Mr. Hanley. U.S. Cellular would support a regional 
approach, and we agree with the 55 regional planning areas or 
States as a model for doing that.
    Mr. Liopiros. I too would support a regional approach. I 
think it would get more commercial carriers involved in the 
implementation of the system.
    Mr. Shimkus. Thank you. That is better than I would have 
expected as far as a consistent response, so I think that does 
show some movement, Mr. Chairman.
    The other issue would be, and I talked it before, is two 
things. One is, I have always been concerned that we don't have 
standardization of equipment out there and so the question--I 
mean, I am talking about nationally now. There may be some 
within departments and areas. But also I raised the issue of 
the expiration or the statutory deadline and the funding 
authority of September 30, 2010, and I raise that. There is one 
bill, H.R. 3348, which would grant extensions to allow us to 
roll out. Would you be supportive of us moving rapidly to 
extending that ability? And Chief, if you would start and then 
go back down?
    Chief Bratton. Very supportive.
    Mr. Fontes. Definitely I would support the standard 
equipment and I think all of public safety agrees that LTE is 
the de facto standard, and then with respect to the funding 
authority, I would support it.
    Mr. Shimkus. Let me follow--the fact that they have agreed, 
does it mean that it is?
    Mr. Fontes. No.
    Mr. Shimkus. And so something--there probably should be 
some certitude based upon law or rulemaking of a standard.
    Chief McEwen. I assume you are talking about the extension 
of the PSIC grant? Is that what you are talking about? OK. 
Well, first of all, I think we are in support, public safety, 
of extending those grants but those grants as currently written 
are not intended to fund this type of an operation. They are--
--
    Mr. Shimkus. I understand that, but still, as Anna knows, 
we work on emergency response, 911 issues and so this is our 
chance to continue to raise other aspects.
    Chief McEwen. Well, we would support that but I just want 
to make sure everybody understands that money wouldn't really 
bring anything to this issue.
    Mr. Shimkus. In our opportunity to ask questions that are 
important to us, we take every opportunity to do that.
    Chief McEwen. Right.
    Mr. Barbour. I definitely support it.
    Mr. Shimkus. Thank you.
    Mr. Black. We would defer to our public safety partners.
    Mr. Hanley. U.S. Cellular would support the extension.
    Mr. Liopiros. I too would support that.
    Mr. Shimkus. Thank you very much. And Mr. Chairman, with 
that, my time is expired.
    Mr. Boucher. Thank you very much, Mr. Shimkus.
    The gentlelady from California, Ms. Eshoo, is recognized.
    Ms. Eshoo. Thank you, Mr. Chairman.
    Just an observation. We were talking about spectrum and how 
it can be used. I can't help but think of the spectrum here 
from an Angelian with I think a Boston Irish accent to the 
other end of the spectrum, a wonderful, great and Deep South 
accent from North Carolina. Only in America. So we have got our 
own spectrum here.
    I want to ask some questions about the money because that 
is what is going to fuel this. I know that choices need to be 
made and I think the chairman did an excellent job of outlining 
basically four ways to go, what we have in front of us. You 
know, I mean, there is the subleasing. In terms of money, it 
can come from subleasing the spectrum or the money that is 
taken off the top of an auction or the partnerships. Now, Chief 
McEwen, you mentioned that you met with all commercial players. 
What is the price tag on this to have a ubiquitous system? See, 
what I am afraid of or I am fearful of in some of these ideas 
is, I am worried about inner cities and rural areas. They don't 
really have any leverage. I don't think they have leverage, 
anyway. That is my own take on it. So in talking to the 
commercial interests, what is the total sum of money that is 
needed nationally where we have a ubiquitous system? You know, 
any time we get into the weeds on this stuff, I take myself 
back to 9/11, to that fateful day where there was no 
interoperability between police and fire. God only knows who 
would have survived if we had the kind of system that almost a 
decade later we are trying to build out. So this is very real. 
So what do you think, or anyone else, the price tag is for 
this?
    Chief McEwen. First of all, nobody, I think, knows.
    Ms. Eshoo. Nobody knows?
    Chief McEwen. And so I would tell you that there have been 
numbers as low as $20 billion and as high as $40 billion, but 
what we have done is to basically ignore all of that, and the 
reason is that if we leverage as has been suggested by Mr. 
Black some of the existing infrastructure in the large 
companies, the small companies and the rural companies and then 
use public-private partnership to pay for the rest of the rural 
area, we believe that you can save a lot of money. In other 
words, this basically becomes achievable through that kind of a 
structure, and that $20 billion or whatever it is really means 
nothing at the end of the day because if you use the existing 
infrastructure of the carriers, U.S. Cellular--there are rural 
carriers that have infrastructure. The National Rural 
Telecommunications Cooperative has tremendous infrastructure, 
tower sites, all kinds of things that we could leverage upon to 
save money to make this an affordable project.
    Ms. Eshoo. Does anyone else want to comment on it?
    Mr. Hanley. I would say just briefly the cost depends 
obviously on specifications of the network, which----
    Ms. Eshoo. I am sorry. I didn't hear the first part.
    Mr. Hanley. The ultimate, the total cost depends on what 
the specifications are for the network so there is indeed a 
range. I think the key from a funding perspective is to make 
that network as efficient as possible using the efficiencies 
that LTE provides in a larger 20 megahertz band, leveraging as 
much of the operator's existing infrastructure as possible, and 
allowing commercial operators to get value out of it.
    Ms. Eshoo. I understand that. The part that I don't want to 
come to, the scenario that I don't want to see in this hearing 
room is, we have gone off, we have designed this, we have made 
our choices and now we are coming back to you because there is 
a tremendous shortfall and therefore we don't have a ubiquitous 
system. We need to drill down to see how this thing is going 
to--what is needed to build this system. I think we have the 
building blocks for it. I think we are smart enough and we have 
the technologies to know what we want it to deliver but, you 
know what? Around here, price tags really do matter, and if 
there is going to be a shortfall for half of the $40 billion, 
then we need to take that into consideration in terms of what 
we do. I don't want to short-circuit what we want to build 
because we come up short on the money, and I can't believe that 
we don't know that there is a range here between $20 and $40 
billion. It is not fault or blame, I am just saying that we 
really need to plan this better. I don't have any time left.
    Thank you, Mr. Chairman. Instructive hearing. Thank you, 
all of you, for being here today and to our West Coast chief, 
thank you for the job that you do in the City of Angels.
    Mr. Boucher. Thank you very much, Ms. Eshoo.
    The gentleman from Florida, Mr. Stearns, is recognized.
    Mr. Stearns. Thank you, Mr. Chairman. I think that is one 
of the key questions, how much this is going to cost. Now, I 
think my staff and I thought it was $10 to $15 billion, so when 
someone mentioned $40 billion, that is quite larger than we 
expect.
    Mr. Hanley, do you think it would cost as much as $40 
billion? I mean, the range I heard was $10 to $15 billion. Just 
quickly.
    Mr. Hanley. If it is purpose built, dedicated with no 
leverage of existing infrastructure and it is built to very, 
very, very high standard, it could be at the high end of that 
range.
    Mr. Stearns. Dr. Liopiros, do you think it could get by 
with $10 to $15 billion?
    Mr. Liopiros. It is my point that some of the developments 
in terms of the municipalities that want to build out networks 
now, they are doing it with their own funds. If you project 
that with cost to cover the Nation, I think you come up with a 
lower figure than people are quoting. But it really boils down 
to, as Mr. Hanley mentioned before, what are the requirements 
for the system? What do you want it to do? And I would suggest 
that maybe people aren't really quite sure what they want it to 
do and maybe they are just kind of saying well, let us get as 
much spectrum as possible to cover any future growth.
    Mr. Stearns. But auctioning off the D block might not 
only--well, it won't even approach getting this money, maybe 
get $2 billion or $3 billion, so the real question comes down 
to, the fundamental question is, where are we going to get the 
money to do this. Now, I think after listening to you, many of 
us are starting to think that perhaps the government through 
general revenue should provide this. I think the chairman 
talked about this. And so I think what we have here is, it is 
so important, in fact the public safety community on September 
11, 1996, indicated that we need to have a broadband network 
for public safety so it is sort of ironic that on September 
11th when they issued their report in 1996, they talked about 
it. So the need is out there. We have got to get moving. So if 
we can't agree on anything, we should agree that we have got to 
get the revenue from somewhere and perhaps general revenue is 
an area that we could look at.
    So the next question is, if we get the general revenue, 
should we use the D block in combination with the 24 megahertz 
or can we put it all in the 24 megahertz? And I guess, Dr. 
Liopiros, why couldn't we use just the 24 megahertz spectrum, 
take the D block, auction it off to the broadband private 
sector, get the money from that? That would increase the 
broadband capabilities so all of us in our wireless would be 
enhanced and then use the 24 megahertz as the network for 
public safety? Is that doable?
    Mr. Liopiros. I think that is doable over time.
    Mr. Stearns. OK. Now, within that, there is some question 
of whether 10 of it should be for broadband and 14 of it should 
be voice. Is it possible that we could use VoIP, voice over 
Internet, and we could use the whole 24 for broadband with 
voice over Internet so that the entire 24 megahertz is 
available? So is that technically possible? Is there a sense 
that that would be reliable?
    Mr. Liopiros. Technically it is possible. VoIP will be 
provided by LTE and also the developments in LTE that allow 
them to also support the traditional circuit-switched voice 
applications as well. Currently, public safety is oriented 
towards two separate approaches, the traditional narrowband 
voice and over that is going to be overlaid a wideband 
capability, but I think over time you can actually bet on what 
is going to happen is, that combining the two blocks and having 
a one wider broadband capability to support narrowband voice 
applications as well as broadband capability.
    Mr. Stearns. OK. Is----
    Mr. Liopiros. And that makes more efficient use of the 
total spectrum.
    Mr. Stearns. Yes. Is public safety already talking about 
VoIP in some way?
    Mr. Liopiros. I know some have talked about using it. I 
don't know what the official position is.
    Mr. Stearns. Chief?
    Chief McEwen. Well, I mean, I think you are asking the 
wrong person here. I mean, we are the public safety people and 
he is a commercial guy. Here is the issue----
    Mr. Stearns. Well, I am looking for somebody who is an 
engineer.
    Chief McEwen. I know. Well, but here is the issue. Right 
now----
    Mr. Stearns. Didn't you work for the Department of Defense 
at one time?
    Mr. Liopiros. Yes, I did.
    Mr. Stearns. OK. So I don't know if you want to discredit 
him because I think----
    Chief McEwen. I won't discredit him, but the answer is very 
simple. At the moment today as we sit here, there is no 
broadband technology on the drawing board or planned to replace 
mission-critical voice as public safety knows it today. That is 
a dangerous thing, a leap of faith for people to assume that 
you could just build a broadband network to take the place of 
mission-critical voice systems.
    Mr. Stearns. OK. I accept that. I mean, that is true. But 
how about this? If you take and give 14 megahertz for voice and 
10 megahertz for broadband and use the 24 megahertz as a 
network for public safety, Chief, would that be satisfactory to 
you?
    Chief McEwen. See, the problem is that the 24 megahertz, 
the reason it was split into half being narrowband voice for 
mission-critical land mobile systems is because that is 
critical to us today. We can't abandon that because there is no 
alternative. VoIP broadband is not acceptable for mission-
critical systems and the technology----
    Mr. Stearns. But do you think----
    Chief McEwen. It just isn't.
    Mr. Stearns. OK. All right. Well, I will just conclude, Mr. 
Chairman, just by saying this. Is it possible, Dr. Hanley, that 
with the 24 megahertz between voice 14 and broadband 10 would 
be satisfactory? Just yes or no, either one of you.
    Mr. Fontes. Yes.
    Mr. Stearns. Mr. Hanley.
    Mr. Hanley. Yes.
    Mr. Stupak. [Presiding] We are going to stand in recess. We 
have about 3 minutes left to vote. Congresswoman Harman is 
going to come right back and she should have voted. She should 
be back here any second. We will keep this hearing going. 
Members are going to vote and run right back, so we will just 
ask you to hold tight. We will be in recess until Congresswoman 
Harman or someone on this side can take the chair.
    [Recess.]
    Ms. Harman. [Presiding] Reconvene. I would like the supreme 
irony that I, a former member of this subcommittee, came back 
today because I feel so strongly about this subject and now I 
am chairing the subcommittee. Go figure. At any rate, thank you 
all for coming and I want to reiterate the message that you 
have already heard and that you agree with, which is we need to 
get on with this. Does anyone disagree with that? No. 
Yesterday, at the request of Chairman Waxman, I introduced H.R. 
3633, which is to extend the PSIC grant program for 1 year and 
then after that to extend it on a case-by-case basis. That is 
because as all of you know, there were some delays in DHS's 
action and we think that that unfairly burdens you, those of 
you who are in the law enforcement business, at a time when 
State and local budgets are flat to negative. So hopefully it 
will pass the Senate. Senators Rockefeller and Hutchinson have 
introduced it there. That would be good news since they are the 
chairman and ranking member of the Senate Commerce Committee 
and with Congressman Waxman's support I would think we would be 
in good shape here too. So relief is coming.
    Having said that, however, as some of you commented, that 
is not the same as this. Having grants for equipment at the 
local level is not the same thing as building out a national 
interoperable network, and I want to ask you a couple of 
questions about that, but first I do want to say to my own 
chief that we will miss you. Your record is extraordinary. The 
one thing you didn't get done was this project, which I 
assigned you some years ago, and you failed me, but aside from 
that, Los Angeles residents including me are very, very 
grateful for your service and we wish you well, and as my good 
friend, you and I know will stay in touch.
    So my question about this is the following. I heard the 
discussion about regional build-out. I also heard the 
discussion about do we use public money since the auction has 
not succeeded as of yet or not. I don't know what the best 
answer is there but my bottom line is, let us just do it the 
best way we can as quickly as we can. But my question is this. 
I have been concerned that we might be pedaling backwards, and 
I want to explain that, that we might be, at least some parts 
of the country, might be building out local interoperable 
networks but those networks are not interoperable with other 
networks. So in other words, sort of the way I see it, we are 
going operable around the country but we are making it harder 
to go interoperable because those networks don't converge in 
the way they would need to, and I see Chief McEwen nodding so I 
am going to ask him first but then ask for some other comments.
    Chief McEwen. Well, it is a legitimate concern, and we have 
been addressing that concern. The National Public Safety 
Telecommunications Council formed a broadband taskforce to 
address that issue and they have just released their report to 
us. We are in the process of reviewing that. And that is an 
attempt to make sure that these early build-outs in San 
Francisco, New York City, Boston, wherever are going to be 
fully interoperable with any of the rest of the network as it 
is built out. We are absolutely convinced that we have the 
ability to do that and that we have the necessary tools to move 
that forward and not have that a problem.
    Ms. Harman. Is that a promise?
    Chief McEwen. That is a promise, because if it doesn't--I 
represent both the small guys in the police world and the big 
guys, and if I don't perform for both, I am basically out of a 
job.
    Ms. Harman. And you represent the rural guys and the urban 
guys?
    Chief McEwen. I do.
    Ms. Harman. Because that matters to me too. I mean, as all 
of you know, I have spent a lot of years focused on what could 
happen here and it could happen in our smallest communities as 
well as our largest, and since the attacks in the future will 
be asymmetric, I mean, that is the trade craft of our enemy, it 
very easily could happen in small areas that at the moment 
aren't adequately networked.
    Do others of you have comments? Chief Bratton, do you want 
to defend yourself against my comments?
    Chief Bratton. That is my understanding, that this will be 
addressed. If I may, as a follow-on to a question that was 
going on just before the break about the cost of this and the 
wide variety of estimates, to give a bit of perspective on it, 
the system that we have been designing over the last 4 years in 
Los Angeles involving Los Angeles County, 45 cities, we 
estimate the system for that 10-million-person area would be 
about a $700 million project just for that area to get 
interoperability the way we are designing it.
    Ms. Harman. Yes, sir?
    Mr. Fontes. I do believe that interoperability is 
critically important and I certainly support that. I am 
thinking of broadband context interoperability and particularly 
the work that has been done by the council. It has been very 
helpful in working on roaming and interoperability. I too would 
like to add one additional point to the funding issue, and that 
is simply to get a one-time shot of money does very little to 
enable public safety to plan and build for the future and so 
there is essentially a need, and Chairman Boucher summarized 
that there is a need for in this case perhaps general Treasury 
monies in some way, shape or form to provide that capability of 
planning so that you will know from one year to the next what 
you need and what you have to spend. It is basically how we run 
our households, and we know public safety is essentially the 
same.
    Ms. Harman. If I could just insert there, and we do have a 
little more time because we don't have any other members here, 
so as the new chair of this subcommittee, I am planning to take 
a little more time. The stability of funding and the amount of 
funding are clearly relevant, and as Chief Bratton well knows, 
$700 million is not chump change. That is a lot of money. I 
think as important as the funding and sustainability questions 
there are, are the questions, and they may have been asked in 
my absence, about whether our build-out will be state of the 
art and future-proof, and so let me just ask our private sector 
partners to put that back in the table too in the context of 
sustainable funding and amount of funding. I mean, what are 
your thoughts about this?
    Mr. Black. Well, from AT&T's perspective, you know, the 
choice of LTE is an excellent choice because it is the state of 
the art and it is also evolving. That is why they call it long-
term evolution. The fact that public safety has chosen it means 
that they are going to be able to ride the coattails of an 
industry that already has proved to be very, very strong in 
terms of technological advancement, and to that end, AT&T 
participated in the same broadband taskforce that Chief McEwen 
mentioned, and to your point about a sense of urgency, we have 
actually been very bullish about this and once there was 
consensus among the public safety community about going to LTE, 
we have become proactive in working with our device vendors of 
adding the public safety spectrum to the commercial spectrum to 
try to drive down the cost and we think that is the kind of 
partnership that needs to happen.
    Ms. Harman. Any other comments?
    Mr. Hanley. Yes, I would just echo the comment about LTE. I 
think that is very important to achieving sustainability, but 
we have to recognize that the network will evolve. I think that 
folks that build networks will have to take on the 
responsibility for remaining interoperable, even if that 
requires investments in the future. I think also the 
sustainability of the overall ecosystem of devices will be 
enhanced by having commercial users be part of that process. 
That is another reason for shared use.
    Ms. Harman. I strongly agree with that. I represent a part 
of the country that makes most of our intelligence satellites, 
and over the years we have been able to evolve better and 
better capability because a lot of those satellite makers also 
make commercial satellites and the dual-use nature of those 
buses and even some of the stuff that is put on them has 
enabled it to evolve better. So I am strongly in favor of a 
public-private partnership and of an evolving architecture that 
will help law enforcement see the future and grandparents in 
Congress see the future in ways that we might not otherwise. So 
that makes a lot of sense.
    Let me just finally ask you as a very impatient person who 
has only spent about 8 years pushing on this, when do you 
really think we will get there from here?
    Chief McEwen. Well, we are never going to get there until 
you help us get there. I can guarantee you that. So it is a 
matter of making decisions. The decision we are asking you to 
make right now is to pass legislation to take the D block off 
the auction block. Either that has to happen or there has to be 
an auction, and the problem is that at the moment we don't know 
when either of those may happen. So, I mean, it isn't going to 
go forward until one of those happens.
    Ms. Harman. Yes?
    Mr. Fontes. I would reverse the priority. I would think 
that the most important thing if I were in your shoes as 
chairman, I think the most important thing is to ensure that 
there is funding available on a recurring basis. With that 
funding available, whether it is all owned and controlled by 
public safety environment or even if it is a shared partnership 
with the private world, that funding is essential to--you made 
a reference to the buses and how they can plan on the buses on 
these satellites. That is exactly what is going to happen in 
the broadband world. You have to be able to pay for and plan, 
plan and pay for the applications that will benefit all of us 
in public safety. So funding on a recurring basis is essential.
    Ms. Harman. Well, thank you very much. Let me just conclude 
my hearing with the observation that you are all right and that 
progress in individual counties and cities, especially huge 
ones like L.A. County and City, is critical. Sustained funding 
is critical. Congress acting is critical. The FCC acting is 
critical. And industry staying at the cutting edge is critical 
so I think this is our most urgent project. Nine eleven 
happened to us, or 9/11 exposed two big fissures in our 
capability. One was, we had a lot of stovepipe intelligence 
agencies that couldn't talk to each other or even talk to 
themselves in the case of one agency, and the other was that we 
had a completely inadequate interoperable communications 
system, and the combination of those two things resulted in 
catastrophic damage and loss of life in America and it is 
something we will never forget. So we have done substantial 
work to fix the lack of information sharing in our government. 
We have done intelligence reform. We have done all kinds of 
things that I think have put us in a much better place with 
respect to that. But we have far too little to build out a 
truly national interoperable communications network, and you 
folks are all bright and you know what is needed and I think 
most of the folks on this committee on a bipartisan basis are 
committed to make it happen. Now we just have to do it. And I 
thank you for staying during the voting period, and I want to 
express my gratitude to all on this committee for naming me the 
new chair of the subcommittee.
    The subcommittee hearing is adjourned.
    [Whereupon, at 10:15 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED] T4100A.054
    
    [GRAPHIC] [TIFF OMITTED] T4100A.055
    
    [GRAPHIC] [TIFF OMITTED] T4100A.056
    
    [GRAPHIC] [TIFF OMITTED] T4100A.057
    
    [GRAPHIC] [TIFF OMITTED] T4100A.058
    
    [GRAPHIC] [TIFF OMITTED] T4100A.059
    
    [GRAPHIC] [TIFF OMITTED] T4100A.060
    
    [GRAPHIC] [TIFF OMITTED] T4100A.061
    
    [GRAPHIC] [TIFF OMITTED] T4100A.062
    
    [GRAPHIC] [TIFF OMITTED] T4100A.063
    
    [GRAPHIC] [TIFF OMITTED] T4100A.064
    
    [GRAPHIC] [TIFF OMITTED] T4100A.065
    
    [GRAPHIC] [TIFF OMITTED] T4100A.066
    
    [GRAPHIC] [TIFF OMITTED] T4100A.067
    
    [GRAPHIC] [TIFF OMITTED] T4100A.068
    
    [GRAPHIC] [TIFF OMITTED] T4100A.069
    
    [GRAPHIC] [TIFF OMITTED] T4100A.070
    
    [GRAPHIC] [TIFF OMITTED] T4100A.071
    
    [GRAPHIC] [TIFF OMITTED] T4100A.072
    
    [GRAPHIC] [TIFF OMITTED] T4100A.073
    
    [GRAPHIC] [TIFF OMITTED] T4100A.074
    
    [GRAPHIC] [TIFF OMITTED] T4100A.075
    
    [GRAPHIC] [TIFF OMITTED] T4100A.076
    
    [GRAPHIC] [TIFF OMITTED] T4100A.077
    
    [GRAPHIC] [TIFF OMITTED] T4100A.078
    
    [GRAPHIC] [TIFF OMITTED] T4100A.079
    
    [GRAPHIC] [TIFF OMITTED] T4100A.080
    
    [GRAPHIC] [TIFF OMITTED] T4100A.081
    
    [GRAPHIC] [TIFF OMITTED] T4100A.082
    
    [GRAPHIC] [TIFF OMITTED] T4100A.083
    
    [GRAPHIC] [TIFF OMITTED] T4100A.084
    
    [GRAPHIC] [TIFF OMITTED] T4100A.085
    
    [GRAPHIC] [TIFF OMITTED] T4100A.086
    
    [GRAPHIC] [TIFF OMITTED] T4100A.087
    
    [GRAPHIC] [TIFF OMITTED] T4100A.088
    
    [GRAPHIC] [TIFF OMITTED] T4100A.089
    
    [GRAPHIC] [TIFF OMITTED] T4100A.090
    
    [GRAPHIC] [TIFF OMITTED] T4100A.091
    
    [GRAPHIC] [TIFF OMITTED] T4100A.092
    
    [GRAPHIC] [TIFF OMITTED] T4100A.093
    
    [GRAPHIC] [TIFF OMITTED] T4100A.094
    
    [GRAPHIC] [TIFF OMITTED] T4100A.095
    
    [GRAPHIC] [TIFF OMITTED] T4100A.096
    
    [GRAPHIC] [TIFF OMITTED] T4100A.097
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
